<html>
<title> - HURRICANE PREPAREDNESS IN THE GRAND STRAND</title>
<body><pre>[Senate Hearing 109-1116]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1116
 
                        HURRICANE PREPAREDNESS 
                          IN THE GRAND STRAND

=======================================================================

                             FIELD HEARING

                               before the

                        SUBCOMMITTEE ON DISASTER
                       PREVENTION AND PREDICTION

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 10, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                  U.S. GOVERNMENT PRINTING OFFICE
64-525                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b2d5c2ddf2d1c7c1c6dad7dec29cd1dddf9c">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
  Samuel E. Whitehorn, Democratic Deputy Director and General Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

           Subcommittee on Disaster Prevention and Prediction

                  JIM DeMINT, South Carolina, Chairman
TED STEVENS, Alaska                  E. BENJAMIN NELSON, Nebraska
GORDON H. SMITH, Oregon              MARIA CANTWELL, Washington
DAVID VITTER, Louisiana              BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 10, 2005..................................     1
Statement of Senator DeMint......................................     1

                               Witnesses

Cantore, Jim, On-Air Meteorologist, The Weather Channel..........     9
Dean, Brad, President/CEO, Myrtle Beach Area Chamber of Commerce.     3
    Prepared statement...........................................     6
Gandy, Jim, Chief Meteorologist, WLTX-TV, Columbia, SC...........    23
    Prepared statement...........................................    26
Prevatt, David O., Ph.D., PE, Assistant Professor and Director, 
  Wind Load Test Facility, Department of Civil Engineering, 
  Clemson University.............................................    12
    Prepared statement...........................................    15
Whitten, Paul D., Director, Horry County Public Safety Division..    20
    Prepared statement...........................................    22


                        HURRICANE PREPAREDNESS 
                          IN THE GRAND STRAND

                              ----------                              


                       WEDNESDAY, AUGUST 10, 2005

                               U.S. Senate,
        Subcommittee on Disaster Prevention and Prediction,
        Committee on Commerce, Science, and Transportation,
                                                  Myrtle Beach, SC.
    The Subcommittee met, pursuant to notice, at 9:00 a.m. at 
the Springmaid Beach Resort and Conference Center, Myrtle 
Beach, SC, Hon. Jim DeMint, Chairman of the Subcommittee, 
presiding.

             OPENING STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Well, I'd like to call to order the first 
field hearing of the Disaster Prevention and Prediction 
Subcommittee. This is a Subcommittee that I'm Chairman of. It 
was formed after the tsunamis but in recognition that our 
country needs to do a lot more to be prepared for disasters, 
whether they be natural or otherwise, and that we do whatever 
we can to prevent the loss of life and property damage.
    So, this morning the Committee will be hearing testimony 
about the state of preparedness in the Grand Strand, and 
hopefully we can get suggestions on things that we can do to be 
more prepared and, in any way we can, to prevent the loss of 
life, economic loss, and damage to property. So, I appreciate 
all of my witnesses being here today.
    You know, as we witnessed last year in Florida, hurricanes 
can have a tremendous impact on life and property. The four 
major hurricanes that made landfall were all among the top ten 
most costly hurricanes in history and accounted for a total of 
over $21 billion in combined insured losses. And this is more 
than the insured losses from the World Trade Center and the 
Pentagon attacks in 2001.
    Unfortunately, from what we've heard from witnesses before 
in this Subcommittee, we can expect seasons like last years to 
be the norm for possibly the next two decades. Just last month, 
the Subcommittee heard from Max Mayfield, Director of the 
National Hurricane Center. He discussed NOAA's 2005 hurricane 
season prediction, which, at the time, called for 12 to 15 
tropical storms, of which 7 to 9 would become hurricanes, which 
would be a pretty active season.
    Unfortunately, as we all learned last week, NOAA's May 
prediction most likely underestimated the total number of 
tropical storms we're going to see this year. Instead of the 12 
to 15 storms predicted in May, it's more likely we're going to 
see 18 to 21 storms this season, and 9 to 11 of them are going 
to be hurricanes.
    While the brunt of this year's and last year's hurricane 
season were focused on the Florida and Gulf Coast, we can't 
expect it to continue indefinitely. With the forecast for an 
increasing number of hurricanes for the next two decades, we 
can expect that, sometime in the near future, we will see a 
major hurricane make landfall in or near the Grand Strand. The 
state and local governments have been working hard to prepare 
for the possibility of a major hurricane making landfall here.
    I hope those of you who are here from out of town took note 
of the blue and white evacuation signs. I know the locals know 
which arteries they need to take to get out of town in the 
event of a major storm making landfall here in the Grand 
Strand.
    I know that the state and local governments appreciate the 
threat posed by these storms and are doing all they can to 
prepare for the storms. But a lot of the preparation falls to 
citizens.
    Everyone should have a family hurricane disaster plan that 
stocks the necessary supplies in the event that you have to 
shelter in place during a storm or if you lose power. 
Homeowners and builders should consider using disaster-
resistant building materials that will help protect their homes 
from the rain associated with hurricanes. If a homeowner can 
keep the rain out of their house during a storm, the damage 
would be much less severe.
    If the Federal Government, the state and local governments, 
and, most importantly, local citizens work together, we can 
dramatically reduce the damage caused by these storms.
    This morning, we're going to hear from a number of 
witnesses who will help provide insights into how we can better 
prepare our communities. I'm looking forward to the comments of 
Jim Gandy, South Carolina's weatherman, on how our local 
communities can better prepare for storms that will impact our 
communities in the coming years. He has advised governors on 
preparing for storms, and I'm looking forward to his insights.
    Also appearing this morning will be Dr. David Prevatt, from 
Clemson's Wind Load Test Facility, to discuss how the winds 
associated with hurricanes impact structures. Clemson's work to 
model the impact of severe storms provides important 
discoveries into how we can better construct our buildings to 
resist severe storms.
    Living in a coastal community exposed to hurricanes, I'm 
sure many of you have watched The Weather Channel's Storm 
Stories or have seen the on-air meteorologist, Jim Cantore, 
report from the field. I appreciate him being here this 
morning. He has been in the eye of many storms, and I know he's 
going to have important perspectives on what these 
communities--what our communities could do to better prepare.
    Also appearing this morning will be Paul Whitten, the 
Public Safety Director for Horry County. Mr. Whitten is 
responsible for planning and preparation that ensures that, 
when a storm does impact the Grand Strand, that the community 
is prepared. I will be interested to hear how he works with the 
various governments and community groups to ensure that Myrtle 
Beach is prepared for one of these storms.
    Finally, we'll be hearing from Mr. Brad Dean, President of 
the Myrtle Beach Chamber of Commerce. The economy of Myrtle 
Beach depends, to a large degree, on the vitality of the 
tourism industry, which is directly impacted by local and 
regional weather, particularly the threat of hurricanes. Mr. 
Dean will be discussing local industry's preparation for 
hurricanes and the impact that those storms have on local 
businesses.
    In the past, we've seen periods where hurricane activity 
was as high as it is now, but development was not nearly as 
dense in our coastal communities as it is today. Tourism and 
coastal businesses are an essential part of the Grand Strand 
and South Carolina's economy. We must work today to ensure that 
we are prepared for a storm when it hits and that we can 
recover quickly and get back to business as soon as possible.
    While these storms are dramatic events when they make 
landfall, they are relatively rare events. Day in and day out, 
visitors should enjoy the beautiful beaches we have here in 
Myrtle Beach and enjoy all that South Carolina has to offer.
    With that, I'll ask our witnesses to make their opening 
statements. And if you could confine your statements to five 
minutes, I'd appreciate it. If you've got a longer statement, 
we will make it part of the official record.
    And that is, I think, an important note. The purpose of 
this Committee is to collect official information that we can 
submit to all the Committee staff who are developing 
legislation. It gives us, certainly, the information we need to 
convince other Senators to follow our lead on whatever needs to 
be done from developing new legislation. So, this is part of 
the official record, and it's an official hearing, and I 
appreciate all of you taking part in it.
    Why don't we start with Mr. Dean? And we will take 
statements from everyone. I'll ask some questions, and then, I 
mentioned to some of the panelists, if you have questions of 
others or comments that you'd like to make in addition to what 
someone else has said, we want to get all the information we 
can before we leave today.
    So, Mr. Dean, if you'll start us off, I'd appreciate it.

            STATEMENT OF BRAD DEAN, PRESIDENT/CEO, 
             MYRTLE BEACH AREA CHAMBER OF COMMERCE

    Mr. Dean. Thank you, Mr. Chairman. And let me, if you'll 
indulge me, begin with my professional obligation, as President 
of the Chamber, welcoming you and all the panelists and 
visitors here today to the Grand Strand. We certainly are 
delighted to see them. And it's one of the few times where we 
are excited and pleased to see Jim Cantore arrive. Normally 
when Mr. Cantore arrives, it is not with good news, so we're 
welcoming him, as well, today. Thank you all for being here.
    Mr. Chairman, as you know and indicated in your opening 
comments, travel and tourism is one of the Nation's largest 
industries, certainly the largest industry in South Carolina. 
Whether you measure that by retail sales, employment, or 
economic outlook, it is certainly an important industry for the 
Southeastern United States and the United States in general.
    Here in South Carolina, tourism is big business. It's a $15 
billion industry. And the Grand Strand, the area from Little 
River, North Carolina, to Georgetown, is one-third of the 
State's tourism economy. Though it is an industry made up of 
small businesses, it is truly big business in South Carolina. 
And the economic impact extends far beyond the coastline. 
Tourism pays for bridges, for roads, for economic development; 
it even pays for schools. So, what's good for tourism is good 
for South Carolina. And, certainly, what's good for tourism is 
good for America.
    There has been much debate within the tourism industry and 
outside the tourism industry on the recent release of the five-
day forecast. The five-day forecast, because of its inherent 
inaccuracy, especially in light of the very accurate three-day 
forecast, caused much concern. And I can tell you from the 
perspective of the Myrtle Beach Area Chamber, where we handle 
hundreds of thousands of phone calls from prospective visitors 
each year, just the mention of a tropical storm that could make 
its way to the Eastern United States will start the phones 
ringing. And the minute that the Carolinas or Myrtle Beach, in 
specific, is mentioned as part of that potential five-day 
forecast track, it is not at all uncommon to receive hundreds 
of calls each hour, with visitors not sure if they should come. 
That has clearly been a trend that we have seen, and it has not 
changed. If anything, that has grown in the sensitivity--some 
might call, the panic--associated with potential five-day 
forecasts causes many potential visitors to call and express 
concern and perhaps change vacation patterns.
    Bear in mind that a big day in tourism along the Grand 
Strand is $40 million a day. And that doesn't count the 
millions of dollars of state and local taxes. So, the slightest 
change in forecasting can very well cause millions of dollars 
of economic impact. Although I would go so far as to say, Mr. 
Chairman--and I think I speak for the entire tourism industry 
when I say that the issue here today is not economics. 
Certainly, the most important factor that we all must consider, 
and I think would all agree, is safety--safety of visitors, 
safety of residents--and securing the safety and well-being of 
those who are here, and planning to arrive here. So, the 
ultimate discussion is not about the economic impact, but what 
we do to minimize that, as well as to maximize the safety and 
well-being of our residents and visitors.
    We find that the accuracy of forecasting with the three-day 
forecast has enabled our local emergency planners--most 
notably, Mr. Whitten and those who work with him, as well as 
the American Red Cross and other local agencies, as well as 
businesses--sufficient time to plan for and handle storms that 
may be approaching the coastline and could eventually fall 
here. But we don't, certainly, want to rely on what has worked 
in the past.
    We understand--let me be very clear--we understand that the 
five-day forecast is here to stay. One of our chief goals is to 
work with NOAA, the National Weather Service, the community of 
meteorologists, as well as emergency planners, to ensure that, 
if we are to use a five-day forecast, it should be as accurate 
as possible. We believe that an accurate five-day forecast will 
not only enhance the safety and well-being of our residents and 
visitors, it could also enhance tourism, because tourism, in 
some respects, lives and dies off of weather, good or bad. But 
we believe that the five-day forecast will be far more useful 
when its accuracy is improved. And, though I certainly 
recognize that it is improving, and has improved in the recent 
years it has been used, we would hope to see the day, sometime 
soon, when the five-day forecast is every bit as useful as a 
three-day forecast in projecting exactly where landfall may be.
    Mr. Chairman, let me also echo your comments and say that I 
certainly agree with you, when we look at the pace of 
development. We have heard that hurricanes are likely to be 
more frequent along the coast of South Carolina, and 
particularly the Eastern United States. One other trend that is 
clear and not going to change anytime soon, and one that we 
welcome, is the growth of visitors and residents along the 
coast of South Carolina. This is a high-growth area. One 
doesn't have to travel too far from where we're sitting today 
to see development that is geared toward that projected growth.
    So, with more people coming to the coast, and more storms 
expected, your point is very well taken, and I applaud you, 
your Subcommittee Members, as well as Chairman Stevens and 
Senator Inouye, for hosting such hearings to address what we 
need to do in the future to maximize safety and minimize the 
economic impact of this.
    There are a lot of suggestions that can be made, and we 
will hear some of those today. But we do believe that a 
proactive approach to development to prepare for the eventual 
storm that we have not seen in any recent year that would make 
landfall here, as well as striving to improve the accuracy of 
the forecasting models, will benefit all--residents, 
businesses, and government.
    We believe that, here along the coast, and particularly in 
Horry County, we have demonstrated a model that has worked 
extremely well, with a close, ongoing, collaborative 
partnership between local government, state government, 
businesses, as well as public and private agencies, who work 
seamlessly to plan for, prepare for, and, ultimately, handle 
storms and the after-effect of storms.
    I would note that the economic cost of a hurricane starts 
long before it would ever make landfall and lasts sometimes 
weeks or months after it has made landfall. But we cannot 
simply look for the days before and after the storm, but, 
rather, to be prepared for and handle all such effects that we 
would see with a large storm approaching the coast of South 
Carolina.
    Again, let me reiterate that safety certainly should be our 
top concern. And none of us, particularly those of us in the 
tourism industry, would ever suggest that anything other than 
safety is most important. But we certainly strive to balance 
that with the economic impact that a storm could have, even if 
it's only projected along the coast. When it comes to this, I 
assure you, the tourism industry will someday be the biggest 
proponent of the five-day forecast that'll let us put behind 
us, perhaps, past disagreements over forecasting models and 
simply strive together to work to make sure that those which 
are used and publicized are as accurate as possible.
    Again, I want to thank you, Mr. Chairman and your 
Subcommittee, for hosting this hearing along the Grand Strand. 
I also want to take the opportunity to thank those at NOAA, the 
National Weather Service, and the community of meteorologists. 
They probably feel, sometimes, that the tourism industry does 
not appreciate the work they do. We do, in fact. What they do 
is very important work, and it is essential to the safety and 
well-being, not only of our visitors and residents, but of our 
tourism economy. We believe that when we continue the 
collaborative effort, ongoing discussion, thorough analysis, 
and the involvement of individuals like those on this panel 
today, that we will find solutions to enhance the potential 
effectiveness of our preparation and prepare for those days 
when storms do arrive here, even with more residents and 
visitors along the Grand Strand.
    Again, Mr. Chairman, welcome to the Grand Strand, and thank 
you for your time today.
    [The prepared statement of Mr. Dean follows:]

            Prepared Statement of Brad Dean, President/CEO, 
                 Myrtle Beach Area Chamber of Commerce

Summary
    Tourism is a major industry along the Grand Strand and in South 
Carolina. The state's tourism industry accounts for $15 billion of 
economic impact, in addition to over $1 billion in state and local 
taxes. The Grand Strand accounts for nearly one-third that amount. 
Grand Strand tourism peaks in the summer, with as many as 500,000 daily 
visitors spending in excess of $40 million.
    The use of the five-day hurricane forecast has a negative impact on 
tourism, as it projects possible strikes with a broad ``cone of 
uncertainty'' that spans hundreds of miles. The result of the five-day 
forecast is two-fold: it unnecessarily projects a path that is far from 
certain, potentially scaring tourists away; and it can lead to such 
consistently inaccurate results that residents and visitors accumulate 
a false sense of security through experience based upon the consistent 
inaccuracy of the five-day forecast.
    The five-day forecast was implemented with little or no input from 
the tourism industry, but it appears this forecast is here to stay. 
Ultimately, the solution is not eliminating the five-day forecast but, 
rather, improving it. If the five-day forecast were as accurate as the 
three-day forecast is today, the tourism industry would welcome its 
use. The best possible solution is improved weather forecasting, 
yielding a five-day forecast with a high level of accuracy.
    Because we are so significantly impacted by weather and weather 
patterns, a weather forecast is a key part of our local tourism trends. 
Some estimates indicate that as much as 40 percent of our visitor base 
during any week during the summer is dependent on the immediate weather 
forecast. This is not surprising when one considers that 44 percent of 
the annual visitor traffic to the Myrtle Beach area comes from North 
and South Carolina.
    A few years ago, when we first learned of the proposed five-day 
hurricane forecast, many Grand Strand residents and businesses became 
concerned. Knowing that the three-day forecast was far from perfect, we 
were justifiably concerned with the planned use of the five-day 
forecast. How could the National Oceanic and Atmospheric Administration 
(NOAA), a division of the Department of Commerce, expect to implement 
this with little or no input from the tourism industry, the very 
industry that stands to gain the most from accurate weather reporting 
and, likewise, stands to lose the most with inaccurate weather 
forecasting. After all, NOAA's mission statement (see Exhibit A) 
includes mention of ``improve economic efficiency by providing the best 
watches, warnings and forecasts.'' We were told this change was 
necessary for the United States Navy to protect its large fleet off the 
coast of Florida and, furthermore, that emergency planners along the 
coastal regions of the United States preferred the five-day forecast. I 
think I can safely speak for the tourism industry when I say that we 
had no concerns, then or now, with the use of the five-day forecast by 
the U.S. Navy nor emergency planners. After all, both must plan in 
advance far before individual citizens need to do so.
    What was most concerning was the large margin of error incumbent in 
the five-day forecast. By their own admission, meteorologists with NOAA 
and the National Weather Service described the massive area of strike 
probability a ``cone of uncertainty.'' This area, which can encompass 
hundreds of square miles, is accurately referred to as such, since the 
use of this five-day forecast has revealed a high degree of inaccuracy 
(see Exhibit B).
    I have enclosed a document, obtained from the NOAA website, which 
shows a graphic representation of the average accuracy of various 
hurricane forecasts over a 10-year period. Two observations are clear 
and indisputable:

        (a) the three-day forecast is far more accurate today than ever 
        before;

        (b) the five-day forecast is far less accurate and not nearly 
        as reliable as the three-day forecast.

    Recent examples of these observations have been witnessed by many. 
Hurricane Charley, a serious storm that caused much damage in the 
Southeastern United States, made landfall near Punta Gorda, FL, despite 
a forecast track that pointed toward Tampa Bay, FL, an area nearly 100 
miles north of the actual landfall. Early forecasts of Tropical Storm 
Bonnie showed forecasted paths of southern Florida, then later Texas 
and Louisiana, before the storm followed an awkward path in the Gulf of 
Mexico and ultimately made landfall along the Florida panhandle.
    Proponents of a five-day hurricane forecast will no doubt point out 
that the five-day forecast in both of the storm situations mentioned 
above included a wide area, wide enough to encompass geographic areas 
that needed to prepare for such a storm. But this inherent inaccuracy 
is the very root of the problem.
    Once the national media have publicized the five-day forecast, 
areas with little probability of serious storm threats will necessarily 
be included in the five-day forecast ``cone of uncertainty.'' It is not 
uncommon for more than one state to be included. At the Myrtle Beach 
Area Chamber of Commerce, it is quite common to receive many phone 
calls from distressed visitors seeking to change or cancel their 
vacation plans once the first mention of the Myrtle Beach area or even 
``the Carolinas'' is made with respect to a possible hurricane path.
    If only the visitors from states other than North and South 
Carolina unnecessarily change their vacation plans to the coast of 
South Carolina due to a hurricane, the economic costs can be in excess 
of $25 million per day. Please bear in mind, this refers to one single 
vacation destination in one single state.
    But, the ultimate cost is not economic but, rather, in human life 
and safety. With so much inherent inaccuracy in the five-day forecast, 
meteorologists are transformed into a modern-day, high-tech version of 
``Chicken Little,'' unintentionally announcing the sky may be falling. 
This is through no fault of their own but, rather, through the 
customary use of the five-day forecast published by NOAA. Though some 
meteorologists have spoken out publicly against the use of the five-day 
forecast, its use continues.
    Proponents of this forecast argue for its publication, essentially 
noting that ``any information is better than no information.'' They 
rightfully note that the potential safety and protection of life and 
property justifies the use of the five-day forecast. These arguments 
may seem logical at first but ignore the damage that a consistently 
inaccurate hurricane forecast can cause. A forecast that is more likely 
to be wrong than right may only serve to prompt residents and visitors 
to ignore such a forecast, or worse yet, to believe that weather 
forecasting in general is inaccurate. This is despite a very accurate 
three-day forecast which has proven to be a reliable tool that allows 
public safety personnel more than enough time to evacuate the Grand 
Strand which, when at its peak, is one of the busiest vacation 
destinations in the entire Nation. And that is done despite this area 
being the Nation's most popular vacation destination with no direct 
access to an Interstate, yet with 93 percent of our visitors driving 
here. Despite large numbers of visitors in automobiles and insufficient 
infrastructure for visitors to leave the area, the three-day forecast 
has proven more than sufficient to manage the safety of our visitors 
and residents.
    With an amazingly high level of accuracy in the three-day forecast, 
and a disappointing level of inaccuracy in the five-day forecast, it is 
easy to understand why many in the tourism industry were surprised and 
somewhat disappointed when the five-day forecast became a common 
forecasting tool. Nevertheless, this genie is out of the bottle and not 
likely to return.
    So, it is appropriate for us to work together, in a collaborative 
manner, to seek the best possible outcome, and that is an outcome that 
all involved in this discussion can agree to: the clear, indisputable 
need for improved weather forecasting. Those of us in the tourism 
industry who have been the staunchest opponents of the five-day 
forecast would become, perhaps, its biggest proponents if the level of 
accuracy were increased to a level similar to that of the three-day 
forecast. Improved forecasting would be far less likely to 
unnecessarily harm a coastal tourism economy in any state. Further, an 
accurate five-day forecast would be more reliable in the eyes of 
individual citizens whose safety must come first, before any economic 
loss or promise of economic gain.
    I am reminded of the old saying that ``change is not always better, 
but to be better, one must be willing to change.'' Clearly, the five-
day forecast has not proven to be a better forecasting tool, even by 
the admission of those who use it regularly. Some meteorologists have 
even spoken out against the use of the five-day forecast, noting their 
clear preference for an accurate three-day forecast. Furthermore, this 
change has caused unnecessary concern and economic loss since its 
implementation. For the benefit of all, including the safety of our 
residents and our visitors, improved weather forecasting that increases 
the accuracy of the five-day hurricane forecast will be better for all 
involved, ultimately enhancing the safety of our citizens and the 
vibrancy of our national tourism economy.

                               Exhibit A

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Exhibit B

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator DeMint. Mr. Cantore, I think this is the first time 
I've ever seen you when you weren't standing in 50- to 80-mile-
an-hour wind. So, it's----
    Mr. Cantore. Well, Mr. Chairman----
    Senator DeMint.--it's good to have you with us today.
    Mr. Cantore.--I've got to tell you, it's a nice break, to 
be honest with you. And Mr. Dean, I'm sure, agrees with me, 
that you'd rather see me in a suit and tie, too. No question 
about it.

        STATEMENT OF JIM CANTORE, ON-AIR METEOROLOGIST, 
                      THE WEATHER CHANNEL

    Mr. Cantore. But I thank you for having me. And, you know, 
I've been doing this for about 13 years. And I just want to 
share with you some of the things that I've seen over the past, 
maybe some things we can improve on.
    This does not cover any post-hurricane issues, obviously, 
which I would suggest be discussed, as well, because I think 
getting people back in, is perhaps just as important as getting 
them out of harm's way, as well.
    All right, let's talk about some hurricane facts that I 
just wanted to share with you. To this day, there is no way to 
accurately predict any tropical intensification fluctuations. 
In other words, let's just take Irene, that's out there now. 
That was supposed to be a hurricane by now. It is not. It's 
barely hanging on as a depression. And, as a result of that, 
the steering is influenced heavily by the size of the storm. 
So, this is something that, until we get better science in this 
area, you've got to realize that we're dealing with an animal 
that's going to change on us, in where it's going.
    We are in, as you mentioned, Senator, an above-average 
phase of hurricane development, because, if you will, this 
multi-decadal phase--if you go back into the 1960s and 1970s, 
we had above-average years then--starting back in 1995, we have 
had above-average years of hurricanes. There's no reason to 
expect that to weaken. We expect the current trend to continue, 
as you mentioned.
    Inland flooding is the number-one killer in land-falling 
tropical systems. So, as we prepare to get people off the 
coast, we have to also keep them out of harm's way in where we 
think that rainfall may be heaviest inland, as well.
    And a strengthening and accelerating land-falling hurricane 
could be a nightmare. Charley--out of all of the four last year 
in Florida, Charley was the only one that was accelerating and 
deepening upon landfall. And the people that I talked to in 
Orlando, and the people that I talked to in Daytona, remember 
Charley more than they remember Frances and Jeanne, which came 
in on their side of the coast, as far as damage is concerned. 
So, that's a nightmare. And people, believe it or not, still 
believe that they can't have anything like that happen to them. 
Nobody's going to argue there.
    You know, we cannot discuss evacuation without enlightening 
everyone to the tremendous psychological impact that occurs 
within people as they prepare for an evacuation, what it is 
we're asking of them, to leave the comfort of their dwelling 
and, in many cases, everything they have worked for, while 
seeing images of past hurricanes wreak havoc on the coastline. 
Not knowing when they can come back to life as they know it, 
many in Florida have not done that, and may never do that. And 
we're asking them to sit in traffic for hours while a storm may 
or may not be worthy of leaving in the first place. Having to 
deal with the enormous psychological stress of evacuation, not 
to mention what they could find in return.
    So, what do we want to do? We want to tell people to get 
out of harm's way and reduce the stresses of getting out of 
harm's way, because we know they're already heavily stressed, 
just the emotional, you know--the impacts from what they see on 
TV, what they hear on radio, and whatnot.
    Here's what's good that I see out there. Enhanced 
technologies have created greater awareness. Satellites are 
better. Radars are better. Cell phones and high-speed Internet 
gets everybody access to the information that we use on The 
Weather Channel. People know it's coming. Our problem is not 
making people aware of the fact that it's coming. Everybody 
knows that it's coming.
    The EOC, the Emergency Operations Center meetings seem very 
timely when I'm on the coastline. They're already meeting, in 
many cases, and planning meetings. And we know when those 
meetings are. And the public information officers, the PIOs, 
who basically represent what is coming out of the EOC, make 
themselves very available to the media. The last two 
hurricanes, in Emily and Dennis, I covered, I actually had them 
call me on my cell phone. They were very willing to do so. So, 
we appreciate that.
    And the coast has experience. We've been in above-average 
hurricane seasons now since 1995, and with video and certainly 
all these emergency operation procedures that have been in 
place, and continue to be in place and improved upon, you know, 
it's just a matter of getting it done.
    The bad and the ugly. We run out of gas. We're asking 
people to leave, and then we don't have the necessities in 
place to get them out of harm's way. That is what I call a 
``disaster in a disaster.''
    Plywood, generators, gas cans always seem to be in short 
supply. I wonder why hardware stores can't just be on standby 
with extra supplies that are needed for hurricane preparedness, 
and bring those in, even if they have to sell them right off 
the truck, because now we've postponed preparedness with 
people. And, to anybody who's ever tried to put up a piece of 
plywood in 30-mile-an-hour wind, it's very hard and it's very 
difficult.
    People still have to sit in traffic for hours when 
evacuating. This is the big one. This is the thing that I think 
needs to be addressed the most. Shelter information--where, 
when they open, et cetera--often arrives late. If it wasn't for 
my friends at the Red Cross, I would have a hard time getting 
that information. It's often the last thing to get to us, ``Oh, 
and by the way, here are the shelters.''
    Media coverage has tripled in the last ten years. So, what 
we do there is risk a mixed message. The more media out there 
covering it, I think you risk a mixed message.
    My recommendations--all EOC communications must be strong 
within EOC and to all media outlets. I look at this like me and 
my wife. We tell our kids to do something, and we agree upon 
it, usually it gets done. If there's disagreement with us, and 
that message is sent to them, then it doesn't get done. So, we 
almost have to have a strong family unit within the EOC in the 
communications that they send out to all the media.
    As far as evacuation orders, when they are given, there has 
to be some way to get those people out on all lanes of highways 
and Interstates. I know this is a tremendous undertaking, and 
maybe even impossible in some areas. But if we ask someone to 
sit in traffic for eight hours to go ten miles, like we did in 
Florida, they're not going to leave again, regardless of the 
strength of the hurricane. So, evacuations and getting the 
routes open to get them out is very, very critical.
    Like I said, PIOs need to be accurate, complete, and 
effective communicators. I've seen that a lot lately. When they 
come out, they're pretty much the word of the EOC, and they're 
very willing to talk to us, which is great, and we appreciate 
that.
    I mentioned earlier, we can't have a ``disaster within a 
disaster.'' We evacuated the whole East Coast during Hurricane 
Floyd, and a lot of people sat in traffic for hours and hours 
and hours, and they didn't even have to leave at all. So, a lot 
of unnecessary evacuation there. And what I call,`` Gas Mania 
2004,'' when the ports of Florida were closed down too early 
and people couldn't get gas, what that caused people to do, 
even this year during Hurricane Dennis, is to go buy five and 
ten gas cans, fill all those up, and we ran out of gas again. 
So, we can't run out of gas if we're asking people to leave.
    And all the media, regardless of how much we have out 
there, need to have a succinct and consistent message. More 
media means we risk that. And people need to know as soon as 
possible when they can or cannot return. Some of the hardest 
stresses on you, I think, are not knowing when you can come 
back to whatever you have left. It's kind of like if you go to 
the doctor's and you're waiting to hear on a test, a certain 
test--the longer that takes, the more stress builds up. So, any 
information, in the meantime, of when people can come back, 
even if it's a month, two months, an estimate, I think, is 
better than not saying anything at all.
    So, I conclude with this. There has never been a perfect 
forecast, to the best of my knowledge. State-of-the-art 
technology gives us a better lead time to prepare for natural 
disasters. Strong support for these advances is essential. So, 
technology needs to be continually improved upon.
    And if we effectively communicate our message and we have 
the necessities in place for a stressed community to process, 
prepare, and protect themselves and their families, I would 
like to see the day--and I do see the day--that hurricane 
evacuation goes as smooth as a fire drill.
    Thank you.
    Senator DeMint. Thank you.
    Mr. Prevatt. Dr. Prevatt. Sorry.

             STATEMENT OF DAVID PREVATT, Ph.D., PE,

               ASSISTANT PROFESSOR AND DIRECTOR,

             WIND LOAD TEST FACILITY, DEPARTMENT OF

             CIVIL ENGINEERING, CLEMSON UNIVERSITY

    Dr. Prevatt. Well, gentlemen, thank you. My name is David 
Prevatt. I am an Assistant Professor of Civil Engineering at 
Clemson University, and Director of the Wind Load Test 
Facility. I appreciate this opportunity to appear before the 
Subcommittee and to testify.
    I must admit that I come here as an advocate, on behalf of 
the researchers and of this community, for an increase in 
Federal support for science and technology research to develop 
hurricane mitigation and risk-assessment measures. Hurricanes, 
as we have heard, are large, costly natural disasters that cost 
billions to recover from and, let's not forget, causing misery 
and suffering to millions of people.
    The fact is, about 50 percent of the U.S. population now 
lives in a hurricane-prone coastal area, yet Federal support 
for hurricane research only amounts to about $5 to $10 million 
per year. In all, over the 20th century, a mere $50 million has 
been directed to hurricane research.
    On this, we have, from Hurricane Hugo in 1989, Fran, 
Bonnie, of course, Floyd, that Jim talked about, and the 2004 
hurricanes. These are figures from the EMD--South Carolina's 
EMD--$1.6 billion in damage to our state, alone. Now, this 
money is not counting the insurance payouts, costs of 
agricultural damage, small-business association loans, and 
unrealized taxes and business losses, not to mention the other 
indirect losses that we probably can't account for.
    So, despite this painfully slow lack of funds, we have made 
progress in South Carolina and in the states. Research has led 
to the creation and adoption of the latest IBC 2000 building 
code by South Carolina and other states. This code contains 
provisions that significantly increase the chance of survival 
of buildings.
    The knowledge--part of our research at Clemson University 
has been the instrumentation of houses along the coast of 
Florida, North Carolina, and South Carolina. What we do here is 
set up portable wind towers to monitor the wind speeds, and we 
also install sensors on houses to measure the wind pressures on 
those houses.
    What we have found is this. Lots of--a small bit of asphalt 
shingles and sheathing, like this, results in some degree of 
damage to your roofing system, without any structural damage. 
And, finally, this can result in complete, almost total, 
destruction of your interior contents, failed wall systems, and 
costs resulting in about 80 percent of your insured value.
    So, one of the problems that I see is that we look for, no 
longer, just the structural problems, but there are other 
building envelope problems that are required to be fixed.
    The knowledge is available now to design and construct 
structures to resist 100 percent of the hurricanes, 100 percent 
of the time. However, no one wants to pay for that, and no one, 
probably, would want to live in that kind of building. So, what 
is needed for us is to use the knowledge to continue our code 
development to study policy implications that can result in 
solutions that the community--that the Grand Strand is willing 
to pay for.
    Here is one of the houses that we have instrumented. Part 
of the techniques we are doing is comparing--if you look at the 
right-most corner of the picture, you'll see three metal 
sensors. Those duplicate the wind pressures.
    Next slide, please?
    We've done models of that house, and in--we can use those 
models to put it in the Wind Load Test Facility's wind tunnel, 
and, therefore, compare full-scale and model-scale data. This 
is giving us, for the first time, knowledge about how buildings 
in suburban areas are loaded by the wind, and, therefore, we 
are going to be able to improve our designs and perhaps not 
have to be as conservative, sometimes, in our code development.
    Simple low-cost measures that homeowners can do to improve 
their houses are provided in my written testimony.
    I see three urgent problems that we need to resolve. And 
this would only be solved through collaboration with 
researchers and the Chambers and communities-at-large.
    First, we need to reduce the vulnerability of critical 
facilities and hospitals and evacuation centers in hurricane 
zones. We can all recall, in Hurricane Charley, the 
catastrophic failure of the Turner Arcadia Civic Center in 
Central Florida which lost a roof and a large masonry wall 
while it was sheltering 1,200 persons. This is something that 
we must avoid. In addition, over a dozen hospitals were damaged 
during the four hurricanes that made landfall in 2004. Most of 
that damage was not to major structural systems, it was to 
building envelopes, loss of windows, loss of wall claddings and 
roof claddings, but the hospital still had to be evacuated.
    The other issue I have--and perhaps Jim and I can discuss 
this afterwards--is finding practical alternatives to mandatory 
evacuation of hundreds of thousands of coastal residents at the 
threat of a storm. I am from Trinidad and Tobago. I live on an 
island. Evacuation is not an option. When a hurricane 
approaches, you batten down the hatches and you stay in your 
building once you're outside of that storm-surge zone. The idea 
behind us all placing hundreds of thousands of people in cars 
for ten hours at a time, to me, is not necessarily the only 
solution, or perhaps the best solution for that. Many have 
commented that the possibility of a fast-moving accelerating 
storm can cause significant loss of life if that affects those 
people in their cars on the Interstate.
    And, third, the idea of developing affordable structural 
systems to improve the poor performance of residential 
construction. In particular, the idea of the residential 
construction is the segment of the construction industry that 
really does not perform that well because the structures are 
primarily not engineered structures. Clemson University 
researchers did tests on--that led to--this is a manufactured 
home built in accordance with the HUD guidelines of 1994. It 
survived in that Port Charlotte manufactured-home park 
unscathed. All that damage comes from the older manufactured 
homes. This was a direct result of research and collaboration 
with the construction industry.
    And in Horry County itself in 2000, we did some tests on 
those houses that were flood-damaged and FEMA bought in 2000, 
and here it was--we actually installed load cells and literally 
broke this thing apart and found out what would the capacity be 
before and after hurricane retrofits. This type of research is 
necessary and important for us to continue to develop and learn 
from this what is existing.
    Here again, we see one of the houses where we just simply 
pulled it up to find the uplift capacity. We would recognize 
that those are not plywood or OSB sheathing, but plank roofs. 
When we tried to fail that with our wind-pressure test chamber, 
it couldn't fail, because the design or the construction of a 
plank roof requires two nails at every single plank. That 
structure failed at about 450 pounds per square foot, as 
opposed to the 60 to 80 pounds per square foot that plywood 
would fail.
    We, as the community, have made the choice to use plywood, 
for other reasons, so, therefore, we need to make the choice 
that if we have an idea of what the strength of a material is, 
then we must be able to say, ``Well, what will we, as a 
community, want to tolerate, in terms of failure and damage?'' 
It is up to the communities themselves to ask these questions 
of me, of us researchers, of the Federal agencies, to decide 
what to do.
    The fact remains, we need to build stronger buildings and 
safer homes and businesses. We also need critical facilities 
that are designed to higher standards so that they would 
survive this storm and serve the community when the community 
needs them the most. Basic engineer--wind engineering research 
can provide the information necessary to adjust design and 
construction methods so as to more efficiently increase the 
resistance of the built environment to hurricanes.
    The Wind Load Test Facility at Clemson is a resource for 
South Carolina and the country--as it is an internationally-
recognized center that consistently provides knowledge and 
information that affects our public policy and building codes. 
An increase in Federal funding for wind engineering research 
would allow research to be performed whose results would 
improve our understanding of hurricane-induced damage. That 
better understanding can be incorporated into building codes, 
into practice, into public policies so that hurricane damage 
can be better managed by the local community and by national 
agencies.
    I urge you and the Committee to consider the needs of South 
Carolina and the country, and ask that you support increased 
Federal funding for wind engineering research. The benefits of 
such research to the country would be significant, and the Wind 
Load Test Facility at Clemson would have the opportunity to 
apply to a much larger source of funds for monies than what is 
currently available.
    Chairman DeMint, I look forward to working with you and 
your staff on hurricane issues, whether the issues be public 
policy concerns, technical engineering decisions, or wind-
related matters.
    That's the end of my testimony. Thank you.
    [The prepared statement of Dr. Prevatt follows:]

Prepared Statement of David O. Prevatt, Ph.D., PE, Assistant Professor 
and Director, Wind Load Test Facility, Department of Civil Engineering, 
                           Clemson University
1. Introduction
    Chairman DeMint and members of the Subcommittee, my name is David 
Prevatt, and I am a professional engineer and an Assistant Professor of 
Civil Engineering at Clemson University. Since 1990, I have been doing 
research to mitigate the effects of hurricanes to low-rise coastal 
structures. I also direct the Wind Load Test Facility, which is a 
research laboratory focused on research to mitigate the effects of 
hurricane wind loads on low-rise buildings. We are actively involved in 
creating basic knowledge and developing practical solutions for use by 
engineers and homeowners to improve the resistance of buildings to 
hurricanes, thereby minimizing damage and reducing loss.
    I very much appreciate the opportunity to appear before this 
Subcommittee and to testify in this hearing. In this testimony I will 
first present an engineer's view of the potential for catastrophic 
hurricane damage facing our South Carolina coastal communities. Next, I 
will present my observations of structural damage during the 2004 
hurricane season and present recommendations that can reduce the 
vulnerability of buildings. Finally, I will discuss what the 
engineering research community is doing to reduce wind damage to and 
vulnerability of buildings in hurricane-prone areas, and how the 
research community's results affect public policy.
    For almost a generation (1965 to 1994), the frequency of hurricanes 
in the North Atlantic Tropical Cyclone Region was relatively low and 
few hurricanes made landfall in the U.S. Concurrently during this 
period, there has been urban development along vulnerable U.S. 
coastlines, and as a result, about 50 percent of the U.S. population 
now lives in hurricane prone coastal areas. Hundreds of miles of once 
empty coastlines are now major population centers with trillions of 
dollars of buildings and infrastructure exposed to the risk of 
hurricane damage.
    Mitigating hurricane damage is of special concern to Americans 
living in our coastal communities including the coastal communities of 
South Carolina. Public and private support for science and technology 
research is urgently needed in order to address the mounting economic 
losses and manage the risks from future hurricanes.
    Currently, Federal support for hurricane research lags woefully 
behind support for other natural hazards. In 2000, Margaret Davidson of 
NOAA-Coastal Services comparing the research funding for earthquake 
risk with hurricane risk provided data showing that while the total 
damage from earthquakes in the 20th century was only about half the 
total damage from hurricanes ($47.97 billion to $100.7 billion), the 
research funding for earthquake reduction was seven times greater than 
funding for hurricane research (>$350 million for earthquake as opposed 
to $50 million for hurricane research).\1\
---------------------------------------------------------------------------
    \1\ Alvarez, Ricardo (ed.) ``Proceedings of the National Hurricane 
Hazard Reduction Act Meeting,'' Feb. 2000, International Hurricane 
Research Center, Florida International University.
---------------------------------------------------------------------------
    The scenario in the 21st century will be different; more property 
is at risk from hurricanes and more lives that will be affected.
    Four Questions to Consider:

  <bullet> What will it mean to the Myrtle Beach (and Charleston) 
        tourism industry and to the State of South Carolina when (not 
        if) a large, powerful hurricane makes landfall?

  <bullet> What would be the impact of such a disaster on the lives of 
        many full-year residents who rely on the tourism, timber and 
        fisheries industries for employment?

  <bullet> If strengthening all buildings will minimize future losses, 
        what should engineering science and technology researchers do 
        to support coastal community efforts to protect itself from the 
        threat of future hurricane damage?

  <bullet> Is the community better served by spending already limited 
        resources on inevitable post-hurricane repairs or instead, 
        systematically investing in scheduled ``pre-hurricane'' 
        Improvements to buildings?

    The Grand Strand may face as a minimum, $3 billion to $4 billion in 
damages and an extended recovery period lasting 6 to 8 months or 
longer. In 1990, participants who attended the ASCE-sponsored Hurricane 
Hugo--One Year Later Conference \2\ may recall that the city of 
Charleston was still picking-up and repairing its buildings during 
those deliberations 12 months after Hugo. Although the loss to the 
forestry and fisheries industries may as yet be beyond our control, as 
engineers we can and should do something to improve the resistance of 
our built infrastructure to withstand hurricanes and minimize loss. 
Furthermore, as illustrated by the Northridge (1994) and Loma Prieta 
(1989) earthquakes, Hurricane Andrew (1992), and other natural 
disasters many small businesses close--never to reopen--because of the 
inability to reconstruct and service customers and clients in a timely 
manner.
---------------------------------------------------------------------------
    \2\ Sill, B.L. (Clemson Univ); Sparks, P.R. eds. Source: Hurricane 
Hugo One Year Later, ASCE, 1991, 293p.
---------------------------------------------------------------------------
2. Hurricane Catastrophe Potential for South Carolina
    I have come here to advocate on behalf of the researchers and this 
community for an increase in Federal support for science and technology 
research to develop hurricane mitigation and risk management 
activities. With the predicted upswing in frequency and intensity of 
hurricanes over the next few decades, and the growing populations 
living in vulnerable coastal cities, losses from hurricanes will 
escalate in coastal communities unless we can better understand--and 
manage--the effects of hurricanes on the built environment; 
understanding that can only result from federally funded basic wind 
engineering research.
    Horry County, South Carolina, has enjoyed impressive growth in its 
population over the past 15 years, increasing approximately 44 percent 
from about 145,000 in 1990 to about 210,000 today. The Grand Strand 
region is a significant contributor to the economic well-being of the 
state. However, hurricanes and the threat of hurricanes continue to be 
detrimental to this tourism-based economy. Comprehensive and sustained 
efforts to alleviate this threat will be needed to support the regional 
tourism-recovery program being developed by state and local leaders. 
The effort should focus on: (1) improving the performance of all 
buildings, both residential and commercial to maintain functionality of 
the community, and (2) managing expected losses that will occur.
    Myrtle Beach will suffer economic losses if the hotels along the 
Grand Strand are not full of paying guests because of a lack of basic 
services, infrastructure and because the swimming pools facing the 
beach are filled with sand. But while I expect hotel buildings would 
sustain some damage, single family residences are the structures most 
likely to be damaged significantly. Wind loads on low-rise buildings--
wood-framed structures in particular--have received more attention 
recently because of the large economic losses they have sustained 
during hurricanes in the last 10 years. Residential construction 
continues to bear the brunt of damage to the built environment from 
hurricanes.\3\
---------------------------------------------------------------------------
    \3\ Rosowsky, David; Schiff, Scott, What are our expectations, 
objectives, and performance requirements for wood structures in high 
wind regions? Natural Hazards Review, v 4, n 3, August, 2003, p 144-
148.
---------------------------------------------------------------------------
    The main reason for the poor performance of this building type is 
that residential structures are typically not engineered to resist 
loads. Rather, the construction methods have been developed empirically 
over time. I use the term ``engineered structure'' to described any 
structure in which all of its components have been designed in a 
rational manner, using latest information on the expected loads, and 
knowledge of the material strengths. Such structures are designed to 
have a reasonable margin of safety. It is through technology transfer 
of fundamental research knowledge to the practicing engineers and code 
officials that the latest knowledge becomes available and improved 
building methods implemented.
    Another concern for the Grand Strand region and South Carolina is 
the performance of the critical facilities during a hurricane. As I 
will describe later in this testimony, hospitals, evacuation shelters, 
police and fire stations remain vulnerable to damage and some of these 
will not be functional during or after a hurricane. Also, mandatory 
evacuations of hundreds of thousands can be a problem with large 
coastal populations. Many experts have stated that a fast moving storm 
could result in large loss of life among persons in traffic jams trying 
to evacuate.\4\
---------------------------------------------------------------------------
    \4\ Reinhold, Tim (2005) Testimony Given at Disaster Prevention and 
Prediction Hearing: Severe Storms and Reducing Their Impact on 
Communities.
---------------------------------------------------------------------------
    Based on the above observations, hurricanes cause damage due to one 
of three reasons:

  <bullet> A hurricane exceeded the design requirements of the 
        community.

  <bullet> Structures were poorly designed.

  <bullet> Structures were poorly constructed.

    Research performed at the WLTF addresses all three reasons:

        1. For what hurricane should a community be designed? The 
        knowledge exists to design and construct structures to resist 
        100 percent of the hurricanes 100 percent of the time; however, 
        no one wants to pay for--or occupy--such structures and, 
        therefore, hurricane damage will occur. The WLTF recognizes 
        that a community's willingness to rebuild after a hurricane is 
        reflected in building code requirements. Viz., lower 
        requirements would result in frequent rebuilding while higher 
        requirements would require less rebuilding but larger initial 
        costs. Thus, the building codes reflect a community's 
        willingness to spend money on rebuilding. The WLTF's research 
        considers varying design and construction requirements 
        according the needs of a community, effectively participating 
        in the development of public policy.

        2. Poor design. Students that have participated in the WLTF in 
        their studies have a solid understanding of wind effects on the 
        built environment. The vast majority of these students work as 
        structural engineers after graduation and incorporate what they 
        have learned about wind into their design decisions.

        3. Poor construction. Some research at the WLTF studies 
        existing structures so as to identify if they are vulnerable to 
        wind events that are smaller than that specified in the 
        building code, and--if they are deficient--the most efficient 
        manner of rehabilitating structures to resist the required 
        loads.

    For the above reasons, we need to build stronger buildings and 
safer homes and businesses, and we need critical facilities that are 
designed to higher standards so they would survive and be able to serve 
the community when the community needs them the most. Basic wind 
engineering research can provide the information necessary to adjust 
design and construction methods so as to most efficiently increase the 
resistance of the built environment to hurricanes.

3. An Engineer's Observations from the 2004 Hurricanes
    The 2004 hurricane season provided a real-time laboratory for me 
and other researchers from across the country. WLTF researchers and 
students set up field experiments in 3 of the 4 storms (Hurricanes 
Charley, Frances and Ivan) and we conducted post-hurricane 
investigations to observe and document damage. Our research involved 
collecting wind speed data and posting it to the World Wide Web and 
instrumenting houses to measure wind pressures on roofs.
    Generally, we observed that houses built under the latest codes or 
deemed-to-comply documents and which were not directly exposed to storm 
surge did not fail catastrophically. Instead, houses experienced the 
failure of building envelope components, (roofing, wall cladding, 
windows, and doors); the same failures that have been occurring for 
over 50 years.
    We found that small breaches in the building envelope, especially 
in the roofing systems and soffits can provide paths for water leakage 
that results in extensive water damage to the interior walls, ceilings 
and to building contents. Such minor failures (loss of asphalt shingle 
and underlayment) to one Pensacola house resulted in water damage to 
about 80 percent of all interior finishes on the ceiling and walls. 
Drying out of water-soaked buildings to prevent mold growth and decay 
after the envelope has been breached became BIG business after the 
Florida hurricanes. Some of the less durable materials, insulation, 
gypsum sheathing and acoustic ceiling tiles cannot be dried out and 
must be removed and replaced.
    We observed numerous engineered buildings that suffered little 
damage and retrofitted non-engineered houses also performed 
satisfactorily. In Charley, a major success story was the good to 
excellent performance of newer manufactured homes that were built in 
accordance with 1994 HUD guidelines. Most of these survived with 
minimal damage, while adjacent older manufactured homes that did not 
have wind-resistant construction were destroyed.
    Failure of building envelope systems had a more dramatic impact on 
hospitals and critical facilities during these storms. From Mobile, AL 
to Ft. Meyers, FL, more than a dozen hospitals were damaged or were 
evacuated due to the effects of the 2004 hurricanes. Charlotte Regional 
Hospital in Port Charlotte and the Navy Hospital in Pensacola both 
sustained damage to their roofing systems and windows. The Martin 
Memorial Medical Center in Stuart, FL, lost its elevator penthouse in 
Hurricane Frances and suffered further roofing damage and water damage 
from Hurricane Jeanne three weeks later. Even the Medical University of 
South Carolina in Charleston suffered significant damage during a 
minimal-strength Category 1 Hurricane Garston.
    In addition, during the 2004 storms, numerous fire stations and 
evacuation shelters were not able to maintain function throughout or 
after the storms, including the spectacular failure of the Turner-
Arcadia Civic Center in Central Florida that suffered a masonry wall 
and roof collapse while 1,200 persons were sheltering from Hurricane 
Charley. The failure of hospitals, critical facilities and evacuation 
shelters placed additional burdens on the already stretched civic 
institutions which had to consider removal of sick patients, 
interruption of emergency protection services (fire stations and police 
stations). When we recall that most of these facilities did not 
experience forces near their design levels, we begin to realize the 
enormity of the problems facing us today.
    It is my expectation that we would see similar building failures 
here if a hurricane made landfall in South Carolina. With buildings 
located among our forested areas, tree damage may also be a factor 
here. South Carolina needs buildings with structural and building 
envelope components that are designed and constructed so that they do 
not fail prematurely in winds below their design wind speed. 
Unfortunately, as illustrated by Hurricane Hugo, South Carolina should 
expect significant amounts of damage to occur at wind speeds below 
design wind speeds.

3.1 Practical Construction and Retrofit Recommendations
    South Carolina has adopted state-wide, the International Code 
Council's (ICC) International Building Code (IBC) 2000 building code. 
This document provides the most current available information and best-
practice design to construct wind-resistant buildings. Provided 
legislation is not enacted so as to weaken code provisions, the IBC 
provides appropriate standards for the construction and retrofit of 
coastal houses.
    The extensive damage to the building envelope during high wind 
events can be reduced by providing durable flashing materials in window 
openings and continuous water barriers in walls and roofs. These 
recommendations are good practice and should be installed whether in a 
high wind zone or not. Furthermore, the following table presents 
options for reducing the vulnerability to wind damage.
    While some options may at first appear radical, with the right 
research and benefits/costs analyses it is possible to determine 
appropriate systems for our changing and growing coastal communities.

4. Research at the Wind Load Test Facility
    Since 1991, research at the Wind Load Test Facility (WLTF) has made 
great contributions to improving building codes and increasing our 
understanding of wind forces. The facility was founded with Federal 
funds obtained from FEMA under the Stafford Act as part of the post-
Hurricane Hugo mitigation effort.
    I believe our most important contribution to the state is the role 
we play in the education and training of future civil engineers. We 
have produced over 60 engineers who did their Masters and Ph.D. 
projects at the WLTF. Many of these men and women continue to work as 
civil engineers within South Carolina. Through their research, our 
graduates became sensitized to wind engineering issues and to the 
vulnerability of the state's infrastructure and they (we) continue to 
spread the message that we have the know-how to construct hurricane-
resistant structures for our communities.
    We use the atmospheric boundary layer wind tunnel to conduct 
studies to determine wind loads on residential construction and non-
engineered structures. Our current research focus remains on the wind 
loading of buildings within suburban neighborhoods because so little 
information is available to designers. Science and technology advances 
at universities have made significant improvements in the 
instrumentation and data collection of loads on buildings. Recent 
research collaborations by Clemson University, Florida University and 
Florida International University on the Florida Coastal Monitoring 
Program \5\ have provided full-scale data in real-time, on near-ground 
level wind speeds that is helping NOAA's Hurricane Research Division 
verify the accuracy of wind speed predictions. In addition, wind 
pressure data collected from actual residential buildings allows us to 
determine the loads on the roofs. This work has also provided a means 
to validate results of wind tunnel studies against full-scale data.
---------------------------------------------------------------------------
    \5\ http://users.ce.ufl.edu/6fcmp/.
---------------------------------------------------------------------------
    We are grateful for the financial and other support of many 
organizations, including the South Carolina and Florida Sea Grant 
Consortia, FEMA, NOAA, the Florida Department of Consumer Affairs, the 
Institute for Business and Home Safety and the South Carolina 
Department of Insurance.
    Through our full-scale destructive testing of houses in Horry 
County before and after installation of hurricane retrofits, 
researchers were able to determine how much strength was being added to 
the structure using various retrofit techniques. The houses were made 
available because they were bought by FEMA following the extreme 
flooding in Hurricane Floyd.
    With our wind tunnel testing program and related research, we will 
develop design methods for critical building components and connections 
applicable to wood-framed structures. Our missile impact tests have 
been used to test the impact resistance of lightweight plastic 
composites and aluminum shutters. Our research remains focused on 
developing cost-effective methods for reducing damage; the damage 
mitigations methods should provide the greatest reduction in damage for 
the least cost. However, the ability to develop methods is limited by 
the lack of funds for performing the necessary research.
    While the construction cost of an individual home does not justify 
extensive wind tunnel testing or engineering input, the design 
professional needs to have an idea of the wind loads to which a house 
is susceptible. Knowledge of loads is the basis for sound engineering 
design. There has as yet been little incentive for the housing industry 
to undertake the research needed to refine these loads because home 
builders perceive any modification to design loads as increasing the 
cost of a house and is, therefore, bad business practice. Therefore, 
the research at the WLTF provides a valuable and unique contribution to 
knowledge of hurricane-resistant construction, not only for South 
Carolina, but for the entire country. The knowledge and information 
from research performed at the WLTF is used to improve deemed-to-comply 
building codes by incorporating more engineering knowledge into our 
houses.
    Four areas of ongoing WLTF research are:

  <bullet> Understanding the full-scale wind load and validation of 
        wind tunnel techniques.

  <bullet> Condition and risk assessment of critical facilities, 
        evacuation shelters and hospitals.

  <bullet> Load path investigation for wood-framed roofing structures.

  <bullet> Performance-based design criteria for building envelope 
        components.

5. Summary
    The cost of hurricanes is something that we must bear as a 
community. It is fitting that the community be involved in the 
mitigation efforts. The increasing numbers of large, more complex 
coastal cities and urban centers with unprecedented wealth and industry 
concentrated in small geographical locations makes it important that 
serious consideration be given to designs of all construction that are 
capable to withstand the onslaught of hurricanes.
    The increasing annual amounts of damage from hurricanes and the 
inherent danger to millions of residents have created a greater 
incentive to understand the load regime and performance of residential 
buildings in suburban neighborhoods. Government funding is needed for 
the broad generic research that will lead to improved loading 
information and the subsequent development of improved construction 
techniques. This improved information would be incorporated in the 
country's building codes.
    However, providing improved building techniques and enforcement of 
building codes is only part of the solution. A strong political resolve 
must also exist that will improve the construction and performance of 
the country's buildings. In addition to improved building codes, 
incentives or policies that encourage consumer demand for better-
constructed buildings are required. The WLTF recognizes the need for 
participating in the development of public policy that will promote 
hurricane understanding.
    Our coastal communities should be able to rely upon the continued 
efforts of Clemson's Wind Load Test Facility and allied testing 
laboratories and universities to develop the understanding of wind 
load, knowledge of structural performance of our buildings and to 
perform the engineering research that leads to cost-effective solutions 
for improved building performance. Our efforts cannot continue 
indefinitely without the commitment to support hurricane research and 
the support of coastal communities and organizations in South Carolina.
    The good news is that Hope is around the corner! Ongoing related 
efforts at other (academic, etc.) institutions, and the wind 
engineering community have led to the National Windstorm Impact 
Reduction Act of 2004, H.R. 3980, being passed by the 108th Congress. 
When appropriated this bill would increase available annual funding for 
wind engineering research to about $22 million.
    By providing research that helps us forecast, prepare for and 
understand hurricanes, the engineering research community continues to 
make a valuable contribution to a more sustainable and hurricane-
resistant community on the coasts of South Carolina and beyond. The 
WLTF at Clemson is a resource for South Carolina and the country as it 
is an internationally recognized center that consistently provides 
knowledge and information that affects public policy and building 
codes. An increase in Federal funding for wind engineering research 
would hopefully improve the ability of the WLTF to perform research 
that would benefit South Carolina and the rest of the country.

    Senator DeMint. Thank you, Dr. Prevatt. Very interesting.
    Mr. Whitten.

            STATEMENT OF PAUL D. WHITTEN, DIRECTOR, 
              HORRY COUNTY PUBLIC SAFETY DIVISION

    Mr. Whitten. Yes, sir.
    Thank you for the opportunity to appear. I truly appreciate 
the opportunity to share my thoughts on hurricane preparedness 
in South Carolina, and specifically on the Grand Strand. I also 
wish to state that these statements are mine alone and do not 
necessarily represent the opinions of the Horry County 
Government.
    I've been involved in the hurricane preparedness and 
response business since 1992, when I responded to Hurricane 
Andrew in South Florida. Since then, I've also worked at the 
State Emergency Management Division for South Carolina, where I 
served as the state's first hurricane program manager.
    In 1997, I moved to Horry County, where I became the 
Emergency Management Director, and, as such, I dealt with 
several storms at the local level, also. In 2000, I became the 
public safety director dealing with this, again, still on a 
larger level.
    We cannot continue to ignore the threat that hurricanes 
pose to our coastal communities. A number of factors are 
combining to create a potentially serious tragedy.
    The two biggest factors I see are the growth of our coastal 
communities. Horry County has experienced a tremendous surge of 
population. Many of the new residents are from areas that do 
not experience hurricanes, and, since they do not have any 
experience, they have no practical knowledge in dealing with 
storms. In addition, one of the fastest-growing segments of our 
population is the 55-and-older demographics.
    As you also stated, we're in an increased period of 
hurricane activity. A lot of the hurricane experts believe that 
this period is going to see us up to possibly 21 main storms 
this year.
    If we honestly face this reality, we realize we must begin 
to better prepare our communities. To accomplish this, I 
believe we must consider implementing the following actions to 
the Grand Strand.
    The number-one priority is the development of a southern 
connector. The southern part of the Grand Strand must have an 
effective evacuation route. We continue to put people at risk 
by not having a good evacuation route for tens of thousands of 
our residents living in Surfside Beach, Garden City Beach, and 
the Waccamaw Neck and surrounding areas. Research indicates 
that too many people fail to evacuate because they do not want 
to get caught in the huge traffic jams that have been 
mentioned.
    I believe South Carolina has one of the most effective 
hurricane plans in the Nation. The South Carolina Emergency 
Preparedness Division provides the Governor with the 
information and recommendations that guide the state through 
the evacuation process. And, while South Carolina has 
implemented many innovative traffic procedures, such as lane 
reversals and counterflow operations, the reality is that the 
lack of actual road infrastructure still hampers every 
evacuation on the Grand Strand.
    The second issue I think we need to tackle is the 
development of a real mitigation program. Historically, the 
Federal Government has spent a tremendous amount of money on 
post-disaster assistance. However, we must acknowledge that 
it's better and more cost efficient when we emphasize pre-
disaster mitigation. We have seen progress in this area, 
especially with the requirement for state and local mitigation 
plans, but without funding these plans are difficult, if not 
impossible, to implement.
    In addition, we must be smarter about developing in high-
risk areas. Through the National Flood Insurance Program, the 
Federal Government spends a tremendous amount of money on 
repetitive lost properties. These are properties that are in 
flood-prone areas, and we continually pay to repair these 
properties, to the point that it would be more cost effective 
to acquire and demolish them.
    The third issue is the development of a medical evacuation 
program. One of the biggest unsolved problems facing coastal 
communities is our inability to adequately manage what I refer 
to as a medical-community evacuation. Horry County has numerous 
nursing homes, assisted-living centers, hospitals, and bed-
bound citizens in a potential evacuation zone. The resources 
just do not exist in the local area to conduct an evacuation of 
these citizens.
    We've been working on this issue since Hurricane Bertha in 
July of 1996. Despite efforts to address this issue, I believe 
we are still not capable of implementing a full evacuation of 
this medical community. In the event of evacuation, such as the 
one caused by Hurricane Floyd in 1999, this would put us in the 
position of probably leaving some of our most vulnerable 
citizens in the evacuation zone during a major hurricane.
    Since Hurricane Hugo hit in September of 1989, South 
Carolina has made tremendous progress in preparing for the next 
hurricane. I'm impressed by the dedication of the government 
agencies and the private organizations that worked together in 
this effort. However, I've seen the impact that a storm can 
have on communities. Preparing a community's infrastructure is 
an obvious goal of local government; but until the business 
community is restored, recovery is not complete. Many times, 
this is a neglected component in the process.
    In addition, I've been with families that have had their 
lives and homes destroyed by the impact of a major storm. 
Walking through a house with a family that has had six feet of 
flood water in their home, you realize the devastation that 
occurs both to the structure and to the family unit. Even if we 
had been able to assist them in rebuilding, I can't help but 
thinking that prevention is a better solution.
    I learned, many years ago in this business, that 
landfalling hurricanes have predictable consequences. And 
predictable is preventable. We must guide to ensure a teamwork 
approach, including the Federal Government, state government, 
local governments, private agencies, and individual citizens. 
This teamwork must focus on the entire cycle of disaster, with 
a special emphasis on mitigation. We've worked, in a number of 
times, with agencies such as the Clemson University's Wind Load 
Test Facility that Dr. Prevatt discussed and showed. We 
initiated that process literally days after Hurricane Floyd 
started, when we realized we were going to be acquiring houses. 
We wanted to make them available to the Clemson University Wind 
Load Test Facility to conduct research. We see the benefits of 
that research at the local level and fully support their 
efforts.
    I appreciate the opportunity to come to talk to you today. 
And if you have any questions, I'll be glad to answer them.
    Thank you.
    [The prepared statement of Mr. Whitten follows:]

           Prepared Statement of Paul D. Whitten, Director, 
                  Horry County Public Safety Division

    Thank you for the opportunity to appear before this subcommittee. I 
truly appreciate being able to share my thoughts on hurricane 
preparedness in South Carolina, and specifically on the Grand Strand. I 
also wish to state that these statements are mine alone, and do not 
necessarily represent the opinions of Horry County Government.
    We cannot continue to ignore the threat of hurricanes to our 
coastal communities. A number of factors are combining to create a 
potentially serious tragedy. These factors include:

        1. The growth of our coastal communities. Horry County is 
        experiencing a tremendous surge in population. Many of the new 
        residents come from areas that do not experience hurricanes, 
        and have no practical knowledge about dealing with storms of 
        this nature. In addition, one of the fastest growing 
        demographics in our area is the 55 and older group.

        2. An increased period of hurricane activity. Many hurricane 
        experts believe that we are in a period of increased hurricane 
        activity. This year we are already on our 9th named storm, and 
        the National Hurricane Center is projecting this season to see 
        up to 21 total named storms.

    If we honestly face this reality, we realize we must begin to 
better prepare our communities. To accomplish this, I believe we must 
consider implementing the following actions for the Grand Strand:

                    1. DEVELOP A SOUTHERN CONNECTOR

          The southern part of the Grand Strand must have an effective 
        evacuation route. We continue to put people at risk by not 
        having a good evacuation route for tens of thousands of our 
        residents living in Surfside Beach, Garden City Beach, the 
        Waccamaw Neck and surrounding areas. Research indicates that 
        too many people fail to evacuate, because they do not want to 
        get caught in huge traffic jams.
          I believe South Carolina has one of the most effective 
        hurricane plans in the Nation. The South Carolina Emergency 
        Management Division provides the Governor with the information 
        and recommendations that guide the state through the evacuation 
        process. And while South Carolina has implemented innovative 
        traffic procedures, such as lane-reversals, and counter-flow 
        operations, the lack of actual road infrastructure still 
        hampers every evacuation.

                  2. DEVELOP A REAL MITIGATION PROGRAM

          Historically, the Federal Government has spent a tremendous 
        amount of money on post-disaster assistance. However, we MUST 
        acknowledge that it is better and more cost-efficient when we 
        emphasize pre-disaster mitigation. We have seen progress in 
        this area with the requirement for local Mitigation Plans, but 
        without funding, the plans are difficult, if not impossible, to 
        implement.
          In addition, we must be smarter about developing in high-risk 
        areas. Through the National Flood Insurance Program, the 
        Federal Government spends a tremendous amount of money on 
        repetitive-loss properties. These are properties that are in 
        flood prone areas, and we continually pay to repair these 
        structures, to the point that it would be more cost effective 
        to just acquire and demolish them.

                3. DEVELOP A MEDICAL EVACUATION PROGRAM

          One of the biggest unsolved problems facing coastal 
        communities is our inability to adequately manage what I refer 
        to as the medical community evacuation. Horry County has 
        numerous nursing homes, assisted living centers, hospitals, and 
        bed-bound citizens in the potential evacuation zone. The 
        resources just do not exist in the local area to conduct an 
        evacuation of these citizens.
          We have been working on this issue since Hurricane Bertha in 
        July 1996, and despite efforts to address this concern, I 
        believe we are still not capable of implementing a full 
        evacuation of the medical community. In the event of an 
        evacuation such as the one caused by Hurricane Floyd in 1999, 
        would put us in the position of probably leaving some of our 
        most vulnerable citizens in the evacuation zone during a major 
        hurricane.

    Since Hurricane Hugo hit in September of 1989, South Carolina has 
made tremendous progress in preparing for the next major hurricane. I 
am impressed by the dedication of the government agencies and the 
private organizations that work together in this effort. However, I 
have seen the impact that a storm can have on communities. Repairing 
the community's infrastructure is an obvious goal of local government, 
but until the business community is restored, recovery is not complete. 
Many times, this is a neglected component of the process.
    In addition, I have been with families that have had their homes 
and lives destroyed by the impact of major storms. Walking through a 
house that has been flooded 6, of water, you realize the devastation 
that occurs, both to the structure and the family's emotions. Even when 
we have been able to assist them in rebuilding, I can't help thinking 
that prevention is a better solution.
    I learned many years ago that land-falling hurricanes have 
predictable consequences, and predictable is preventable. We must 
strive to ensure a teamwork approach, including the Federal Government, 
state government, local governments, private agencies and individual 
citizens. This teamwork effort must focus on the entire cycle of 
disaster, with an emphasis on mitigation.
    Thank you for coming here today and providing the opportunity to 
hear these issues and concerns.

    Senator DeMint. You can count on the questions. We'll get 
to that after Mr. Gandy's testimony.

         STATEMENT OF JIM GANDY, CHIEF METEOROLOGIST, 
                     WLTX-TV, COLUMBIA, SC

    Mr. Gandy. Well, thank you very much, Mr. Chairman. And 
thank you for inviting me to address this hearing.
    I'm Jim Gandy, and I'm the Chief Meteorologist at WLTX in 
Columbia, South Carolina. I've been a professional 
meteorologist for 30 years. I've been here in South Carolina 
for 21 years, so I've seen a few hurricanes hit the coast of 
our state.
    I want to say that, first of all, I'm really encouraged by 
what South Carolina has done. It has learned some hard lessons, 
and it has taken steps to address what has been learned. And 
you've already heard quite a bit from these gentlemen here. And 
I want to say that here in South Carolina we're very fortunate 
to have a facility doing the research that's being done at 
Clemson University. And what the state has been doing to 
address some of the problems is admirable. We've learned some 
lessons. And I think what I'll probably end up doing is 
summarizing what you have already heard from these gentlemen.
    But let me just say that I was here during Hurricane Hugo, 
and there were some lessons to be learned from Hurricane Hugo. 
There is a critical need to address communications after the 
storm has passed. Hugo wiped out phone service. And if another 
hurricane of that nature hits our coast, it's going to wipe out 
phone service and wireless communications. It's going to be 
difficult for the state agencies to communicate. So, that's 
something that needs to be done at both the state and local 
level.
    Also, there is a frustration, not only from Hugo, but from 
just about every hurricane that we encounter, with evacuations. 
That's something that's going to have to be addressed.
    From the public perspective, the most important information 
I keep hearing from the public is the extent of the damage. 
Now, the officials are the first to go into the damaged area. 
So, the earliest assessment that we can get of the damage needs 
to be communicated to the public, because they're sitting, 
waiting to go back, and they want to know. They need to know 
what the dangers are if they do go back. And they need a 
reasonable estimate as to when they can return to their 
property. That's a real frustration I hear from the general 
public, ``When can I go back?'' And I understand the pressures 
on public officials to tell them that. And it's hard sometimes 
to assess what the damage is and how soon people can safely go 
back into their communities.
    The basic infrastructure needs to be restored as soon as 
possible after the storm, because when people go back, they're 
going to need food, they're going to need water. That needs to 
be addressed.
    And building codes need to be strengthened in all coastal 
communities. Much of the damage to homes and property comes 
from flying debris, so whatever we can do to reduce flying 
debris is going to help reduce the damage that's experienced by 
buildings.
    Let me make a few comments about some of the lessons that 
we learned from Hurricane Floyd.
    Floyd turned out to be the largest peacetime evacuation in 
U.S. history. Close to three million people were evacuated 
during Floyd. And here in Myrtle Beach--being in Columbia, I 
heard the details of that evacuation. And during Floyd it was 
taking people 14 to 15 hours to drive from Myrtle Beach to 
Columbia, which is normally about a three-hour drive, or a 
little bit less.
    There is a need for lane reversals, and it needs to become 
effective as soon as the mandatory order is issued. There is a 
need to coordinate those evacuations with other states, because 
one of the problems with Floyd, people were evacuating into 
future evacuation zones, making that evacuation even more 
difficult.
    A plan needs to be established to make sure that there is 
enough fuel available for people to make the trip inland. The 
best example of that was Interstate 16 in Georgia, going west 
from Savannah. There is not a lot there. But the Interstate 
became gridlocked. People were running out of fuel, and the 
Interstate was essentially becoming a parking lot. So, that's 
something that we need to address.
    People need better information about where to go for 
shelters. Shelters are available. The problem is trying to get 
that information to the public. And I think that's where not 
only local officials can help us, but the media needs to be 
better at communicating that information. And we can do that.
    Television is changing. It's no longer television 
meteorologists you're looking at; we're true broadcast 
meteorologists. We now broadcast on many different platforms--
television, cable, telephone, radio, and now wireless 
communications. In Columbia, we're the first TV station to have 
our website available to those who've got PDAs. And that's 
where we can broadcast a lot of information. Because if you 
take a look at the evacuation plan here in South Carolina, 
those people are moving from the coast, they're heading toward 
the central part of the state. It's all focused on Columbia. 
And when we can broadcast to those people evacuating where 
those shelters are, that, I think, will be a big benefit.
    This is a problem that I have, personally. Senior citizens, 
those in assisted-living areas and residents of nursing homes, 
they need to be evacuated before the warning is issued. And the 
reason for that is because they're the last people who need to 
be sitting in traffic. So, my recommendation is that they be 
evacuated during a hurricane watch, which is usually issued 
about 36 hours before hurricane conditions are expected. That's 
a tough call, but it's something that needs to be done.
    Other lessons. You've heard about South Carolina's plan for 
lane reversals, and the current one was developed under the 
auspices of Governor Mark Sanford, and I applaud the effort. It 
looks good, and I think it will work. And I think we've done 
the right thing here in South Carolina. The authority for those 
lane reversals rests with the Governor's office. In Louisiana, 
it does not. And that problem was accentuated during Hurricane 
Ivan. The authority for lane reversals comes from the local 
parishes. The problem is, it has to be coordinated with the 
state police. It was not, during Hurricane Ivan. And when the 
mandatory evacuation order was given for New Orleans, it 
resulted in gridlock. The order was given and made at 7:30 in 
the morning. The lane reversals were not implemented until the 
middle of the afternoon. New Orleans, having over a million 
people, you can imagine what the roads were like, trying to get 
out of New Orleans. So, that's something that we need to 
address.
    Hurricane Andrew and Hurricane Charley have something in 
common. They highlighted the need to strengthen building codes. 
We are all familiar with the damage that Hurricane Andrew did. 
What it did was, it highlighted the need to strengthen the 
building codes. What Hurricane Charley did was, showed us the 
benefit--and you just saw an example of that--of the 
manufactured home that survived a hit by Hurricane Charley. 
Now, we may not be able to prevent all of the damage, like 
Andrew. Andrew was just a very powerful storm. But that's rare. 
A storm like Charley is probably more likely. And if we can 
survive those storms, we can greatly reduce the damage that's 
caused by these storms. And so, the message is clear, I think, 
from Charley, that if you can reduce the amount of flying 
debris, there's a greater chance of reducing the damage.
    We just completed doing a study. We just rewrote our 
hurricane plan at our TV station. One of the things that we 
found, which was kind of interesting, there are now--in just 
the Census figures--from 1970 to the year 2000, the population 
of coastal South Carolina grew by more than 70 percent. There 
are now more than a million people living on the coast of South 
Carolina. That's as many people that live in the coast of 
Georgia and North Carolina, combined. So, we've seen a 
tremendous growth in the population.
    On top of that, on any given weekend before Labor Day, the 
population of coastal South Carolina is two to three times 
that. You're looking at two to three million people along the 
coast of South Carolina.
    Our worst nightmare is going to be a storm that approaches 
before Labor Day. After Labor Day, it's not as bad, because a 
lot of people have ended their vacations and kids are at 
school, so you don't have quite the problem after Labor Day 
that you do before Labor Day.
    So, I'm going to accentuate your remark by saying that 
there is a critical need for some kind of Interstate system 
that connects the Grand Strand with Florence and I-20 so we can 
get people out. And that's in addition to what we already have 
to get people out of the Grand Strand.
    One comment that I'd like to make concerning global 
warming. We know that that is taking place. Exactly how it's 
going to manifest itself is difficult, but we do know that sea 
level is rising. That's going to affect coastal communities. 
More importantly, new research has just come to light--and I 
was just exposed to this last week when I was in Washington, 
D.C.--and that research indicates that, by the middle part of 
this century, major hurricanes could be stronger because of the 
warming of ocean waters, so that what you're looking at is: a 
major hurricane, when it occurs, is more likely to be stronger 
than the major hurricanes that we're seeing hitting today. A 
good example of that would be Hurricane Hugo, where the maximum 
sustained wind was estimated at 138 miles-per-hour. That same 
type storm hitting in the middle part of this century is more 
likely to have winds of 150 miles-per-hour. So, that's 
something we need to plan for in the future.
    And, finally, let me just say that we do a pretty good job 
on radio, but we could do better. State and local agencies need 
to work with the media. We are the eyes and the ears for the 
public and whatever information that can come our way is 
generally broadcasted very quickly. We're a very efficient way 
of getting information to the public. And any kind of 
partnership that could be strengthened, I think, is going to be 
done in trying to make these evacuations smooth.
    Thank you, again, for allowing me to----
    Senator DeMint. Thank you, Mr. Gandy.
    [The prepared statement of Mr. Gandy follows:]

         Prepared Statement of Jim Gandy, Chief Meteorologist, 
                         WLTX-TV, Columbia, SC

    I am Jim Gandy, Chief Meteorologist at News19 WLTX in Columbia, 
South Carolina. I have been a professional meteorologist for 30 years 
and have worked in Columbia for 21 years. My experience with hurricanes 
dates back to my childhood in Florida which was one of the reasons I 
became a meteorologist. I have worked tirelessly as a meteorologist 
trying to inform and prepare the public about hurricanes for many 
years.
    I want to thank Senator Jim DeMint and the Committee, for inviting 
me to testify before you today. I hope that the comments that I make 
will be useful in helping improve preparation for hurricanes along our 
coast. Further, I wish to state that the testimony I am about to give 
reflect my opinions and are not necessarily the views of WLTX 
Television.
    Let me begin by saying that most communities recognize the danger 
posed by hurricanes. Most have done an effective job preparing for such 
events and executing their plans. However, we continue to learn as each 
storm presents unique dangers.

                    SOME LESSONS FROM HURRICANE HUGO

    No other storm affected South Carolina in the Twentieth Century 
like Hurricane Hugo. It was the strongest hurricane to strike the state 
since 1893 which produced over 2,000 fatalities in the low country of 
South Carolina. The state and communities were poorly prepared to deal 
with destruction on such a large scale. It took years to recover from 
the experience. It is a fact that a similar storm will strike the state 
in the future and there are some lessons to be learned from Hugo:

          1. There is a critical need to address communications in the 
        aftermath of such a storm. Phone service was completely 
        eliminated after Hugo. Only ham operators were functioning and 
        they provided the critical communications link in the storm's 
        aftermath. Today that would extend to wireless communications 
        as well. A major hurricane is likely to disrupt phone service, 
        cable service, and wireless communications. The forms of 
        communications that are most likely to survive would be ham 
        operators and satellite phones. Therefore, it is imperative 
        that local and state agencies have access to multiple 
        communications platforms. Redundancy is critical to making sure 
        some form of communication survives.

          2. A frustration expressed by evacuees during Hugo was the 
        lack of communication between officials and the public. There 
        were many complaints that authorities were not passing along 
        any information. Thus, a public information office needs to be 
        established at either the state or local level to quickly pass 
        information to the media and public. Evacuees are patient when 
        they have information, but they become restless with a lack of 
        information. The most important information to communicate to 
        the public is the extent of damage, the dangers that might be 
        present, and a reasonable estimate as to when they can return 
        to their property.

          3. The basic infrastructure needs to be restored as soon as 
        possible after the storm. People returning to their property 
        will need access to food and water quickly to begin the 
        rebuilding effort.

          4. Building codes need to be strengthened in all coastal 
        communities. Much of the damage to homes and property comes 
        from flying debris. This is often the result of a building 
        disintegrating in the face of strong winds. The State of 
        Florida seems to be the farthest along in light of Hurricane 
        Andrew and the hurricanes in 2004.

                   SOME LESSONS FROM HURRICANE FLOYD

    Hurricane Floyd resulted in the largest peacetime evacuation in 
U.S. history. More than 3 million residents fled their homes due to the 
potential danger from this storm. The experience was an unpleasant one 
for many who ultimately did not need to evacuate. Many tell stories of 
it taking 14 to 15 hours to travel from Myrtle Beach to Columbia. This 
is normally a 3 hour trip or less. Of the lessons learned from Floyd 
these include:

          1. There is a need for lane reversals to become effective as 
        soon as the mandatory evacuation is ordered. This usually 
        occurs when the National Hurricane Center issues a hurricane 
        warning. States need to prepare to implement the lane reversals 
        as soon as the hurricane watch is issued or 12 hours before the 
        need for mandatory evacuation. People will hesitate to evacuate 
        if it takes 15 hours to make what is normally a 3 hour trip.

          2. There is a great need to coordinate evacuations with other 
        states. This is in an effort to avoid evacuating into other 
        evacuation zones. This problem aggravated the evacuations 
        during Floyd causing even longer delays.

          3. A plan must be established to make sure there is enough 
        fuel available for people to make the trip inland. Sections of 
        Interstate 16 in Georgia became a parking lot because stations 
        were running out of gas.

          4. People need better information on where to go to take 
        shelter. This lack of information often leads to evacuees 
        traveling much longer distances than needed to escape the 
        storm. The media needs better and timelier information on which 
        shelters are open and where they are located. Wireless 
        communications now permit this information to be communicated 
        even when people are not near a television.

          5. Senior citizens, those in assisted living areas, and 
        residents of nursing homes need to be evacuated during a 
        hurricane watch. Many of these people may encounter undue 
        hardships if caught in the normal evacuation delays. These 
        people are more likely to need medical help during an 
        emergency.

                    OTHER LESSONS FOR SOUTH CAROLINA

    The State of South Carolina now has a detailed plan for lane 
reversals and the procedures for implementing the plan. This was done 
as a result of Hurricane Floyd as the request of Governor Mark Sanford. 
The plan is comprehensive, flexible, and relatively quick to execute. 
Furthermore, the authority to execute the plan rests solely with the 
Governor's office.
    The importance of where to place the authority was highlighted 
during Hurricane Ivan in 2004. Louisiana gave the authority to order 
lane reversals to the individual parishes. The order was given in 
Hurricane Ivan, but it was not coordinated with the state police. This 
resulted in a massive traffic jam in New Orleans when the mandatory 
evacuation order was given. It took more than 12 hours for the 
situation to improve. There were two fatalities in this evacuation and 
numerous complaints about the delays. These delays were often too great 
for the elderly trying to evacuate.
    South Carolina's plan has been tested in mock simulations, but it 
has yet to be tested in real-time. I believe that it will test well and 
that it will ease the delays of a mandatory evacuation. It is my 
opinion that the State of South Carolina is on the right track. If it 
has flaws, these may not become apparent until reality strikes. 
However, the plan will not fail from lack of trying.
    Hurricane Andrew and Hurricane Charley highlighted the need for 
South Carolina to strengthen its building codes. Both of these 
hurricanes hit Florida, but they showed what needed to be done and what 
can be done.
    Most structures were completely destroyed when Hurricane Andrew 
struck south Florida in 1992. The resulting surveys convinced the state 
to strengthen its building codes particularly with respect to 
manufactured housing. The new standards took effect in 1994 and were 
put to the test 10 years later.
    Hurricane Charley roared through Punta Gorda in 2004. The 
manufactured homes built before 1994 were often completely destroyed or 
heavily damaged. Meanwhile, the post-1994 homes suffered minor damage 
except in cases where they were hit by disintegrating mobile homes 
built to pre-1994 standards.
    The message is clear. Any time you can reduce the amount of flying 
debris there is a greater chance of reducing the damage.

                             OTHER CONCERNS

    The population along the South Carolina coast grew by more than 70 
percent from 1970 to 2000. There are now more than one million 
residents in the coastal counties of South Carolina. However, on any 
given weekend from Memorial Day through Labor Day there are some 2 to 3 
million people enjoying our coasts. My worst nightmare is trying to 
evacuate in the face of a major hurricane through the Labor Day 
weekend. Any problems we have now would be greatly magnified.
    Hilton Head and Charleston both have an Interstate exit to other 
Interstates. No such Interstate exists for the Grand Strand. The state 
has done the best it can under the circumstances. However, there is a 
critical need for an Interstate connecting the Grand Strand with 
Florence and Interstate 20.
    There is also an increasing threat to coastal communities from 
global warming. Research indicates that by the middle of this century, 
sea levels will be higher and major hurricanes may be stronger.
    The increase in sea level will come from several sources. As the 
waters of the Atlantic warm there will be a rise in sea level from 
thermal expansion. In addition, the melting of glaciers and the 
thinning of the polar ice will add to the rise of sea level. The 
sinking of some land areas near the coast will only add to the rise of 
sea level.
    In addition to threats from the rise of sea level, the strength of 
major hurricanes may increase as the Atlantic waters warm. It has 
recently been demonstrated that the depth of warm waters impacts the 
strength of hurricanes. Hurricane Camille moved over a deep and very 
warm eddy as it approached the Gulf coast. The energy available from 
this warm pool helped create the giant it became.
    Finally, state and local agencies need to work better with the 
media. The media becomes the eyes and ears for the public. It is the 
fastest means of communicating with the public and most versatile. Most 
television stations broadcast on many different platforms such as 
television, cable, Internet, radio, telephone, etc. These are the 
communication experts and they need to be used more effectively. This 
can be and should be done by better cooperation between the government 
agencies and media.
    This concludes my remarks concerning the threat from hurricanes. I 
wish to again thank Senator DeMint and the Committee for allowing me to 
appear before you today.

    Senator DeMint. I want to ask a few questions. I'm 
thinking, like here in the Grand Strand, is it impossible for a 
hotel to be certified to withstand a Category 5 hurricane, and 
that if the preparations with water reserves, alternative 
power, would it not be even a good marketing tool for that 
hotel to be able to say, ``We're evacuation-proof. You can stay 
here and watch the storm.'' And I suspect that would require 
vinyl on glass, shatterproof, all that kind of stuff.
    But I'm just wondering, just to start the discussion, 
should we build all of our preparation on the idea that we're 
going to evacuate, or can we, as Dr. Prevatt has suggested, 
through research and construction techniques, even come--have a 
scenario where if you're in one structure, you have to get out 
of here; but if you're in another one that has been certified, 
that you don't--which might create some--just market-force 
incentives for hotels and even residential areas, builders, to 
use research that's already existing, because, apparently, from 
the slide you showed, I mean, we know how to build a structure 
to withstand a storm, that it's just not done.
    The cost of this is not just an advantage. Everyone who 
lives on the coast is paying a premium through their insurance, 
constantly. And those rates go up and up and up, raising the 
cost of living here, which I think is something we need to look 
at.
    And so, I'd just like to start with the idea, is it 
possible to certify structures so that evacuation would not 
necessarily be the only means to keep people safe? And, Mr. 
Gandy, you apparently want to say something, so----
    Mr. Gandy. I'm familiar with the South Carolina coast, and 
I think, here in the Grand Strand, the main focus there--and 
correct me if you disagree--but I think the main focus there, 
if we can get them out of the storm-surge area, then I think 
that's a really good idea. Because here in--along the Grand 
Strand, the storm surge is not going to be as great as, say, 
down in the Low Country. And let me give you--you're familiar 
with the situation out in the Low Country--Hilton Head, 
particularly. That may not work for Hilton Head, but it could 
probably work here in the Myrtle Beach area. And if a major 
hurricane--say a Category 4 or Category 5 hurricane--were to 
hit down there, the storm surge potentially could go all the 
way to I-95. Now, that's pretty far inland. And if Hurricane 
Hugo had hit Savannah instead of Charleston, Hilton Head Island 
would have been completely submerged.
    So, I think, if we're going to do that, we need to look at 
particularly where the storm surge is going to be. And if you 
get them out of the storm surge, then I think you've done a 
good job.
    Senator DeMint. Yes, that would have to be part of the 
certification process----
    Mr. Gandy. Yes.
    Senator DeMint.--I guess, but the----
    Dr. Prevatt?
    Dr. Prevatt. Senator DeMint, this is--the idea of 
evacuation for wind is something that has come from who knows 
where. You know, the primary reason was for storm surge. And 
wind is just--people sort of look at their neighbor and say, 
``Well, if you're evacuating, I'm evacuating, too,'' and 
everyone jumps in their cars and--you know, and I heard from 
the South Carolina emergency management people yesterday in 
Columbia that said people were evacuating not just one car, but 
they were evacuating two and three cars and the boat. They 
wanted to get everything out of harm's way.
    [Laughter.]
    Dr. Prevatt. Now, one of the things, I think, why certified 
buildings would be a very good idea is, looking at the Florida 
experience, based on the work that Florida DCA and RCMP are 
doing with their windfall insurance money funding, I think, in 
addition to improving the safety of the buildings in Florida, 
it is an additional marketing tool that perhaps Mr. Dean might 
want to consider. At some point, Florida may be able to state 
categorically that, ``This building and this residential 
community, this resort, is certified for a Category 5. Why not 
vacation here instead of other places?'' And that is certainly 
something that I can see using as a marketing tool.
    Senator DeMint. Myrtle Beach could use that against the Low 
Country.
    [Laughter.]
    Senator DeMint. ``Vacation here. We're evacuation-free.''
    Dr. Prevatt. But, you know, and I think of it even in terms 
of the question of evacuation of hospitals and those nursing 
homes, that, yes, I may have outlying buildings that I say 
there are critically ill people that do not need to be there. 
They can move to a more sturdily constructed building. And 
instead of staying on the ground floor, if you have sufficient 
power, you go up. You do vertical evacuation, come away from 
the windows. I have looked at studies for the Medical 
University of South Carolina recently in which they wished to 
upgrade a few of their major facilities that aren't duplicated 
in other areas of the state, and they say, ``These things need 
to be here. We're not going to move someone on kidney dialysis 
machines and put them in a car or in an ambulance.'' You know?
    And so, yes, there are things that we can do. For instance, 
if I look at hotels around here, one might consider impact-
resistant glass or a film on your glass to improve that 
strength. And one would use more durable materials in your 
exterior wall systems. It's typical to use EIFS, but they don't 
work very well in wind conditions. You know?
    But these things certainly, I believe, we can design it. 
It's a question of, Do we want to pay for it? And encouraging 
people, everybody, that you need to pay for these up front----
    Senator DeMint. Let me ask, because you mentioned more 
research dollars, which sounds clearly like there may be some 
opportunity. But it doesn't appear that the market is using the 
research that's available today. I mean, if we've got things we 
know we can do in construction that can virtually make a home 
hurricane-proof, that doesn't seem to be--at least I don't see 
that as something that's going on, to any large degree. Is that 
not true, or, I mean----
    Unidentified Panelist. It's more cost than anything.
    Senator DeMint. Yes.
    Mr. Dean, do you see that here, that folks are building to 
a certain code?
    Mr. Dean. Yes, Mr. Chairman. And I think your point's very 
well taken. There is information that's nice to know, there's 
information you need to know. And, in this particular case--and 
I think the Doctor indicated earlier--the research that is 
being done would certainly enhance improvements, but, from the 
perspective of a home builder or, particularly, a business 
along the coast, if it's a foregone conclusion that during a 
certain level of storm you're going to evacuate, and if your 
insurance rates don't necessarily distinguish between benefits 
of having such or not--and they don't always do it--then it 
becomes an issue of, Is it really advantageous to do so?
    Now, turn that around from a problem into an opportunity, 
to your previous question. If, in fact, a certain level of code 
could prevent a resort from having to evacuate in a storm, 
where the storm surge is not going to be an issue for that 
particular area, and if it did provide incentives, now there 
would be an incentive to do that. And, to your point earlier, 
it would become very marketable.
    So, I think the answer to your question is that the 
information is being used, but it's not advantageous such to 
the point that businesses need to----
    Senator DeMint. Well, maybe if insurance companies don't 
recognize it, property taxes could. So, you could look 
locally--I think that Mr. Cantore may have been the one that 
mentioned that most of the deaths are from flooding when people 
are moving around, not necessarily from in a structure. Am I 
right, or is----
    Mr. Cantore. Well, inland flooding.
    Senator DeMint. Yes.
    Mr. Cantore. Whether it be the mountains of North Carolina, 
with Frances and Ivan, you know, where they had 30 inches of 
rain. You know, you take a system that's supposed to be in the 
tropics, and you put it over the mid-latitudes or in the United 
States, and you can have some big problems with flooding. And 
that is--you know, we get people away from the coast. We get 
them out of the storm-surge zones. But we just have to make 
sure we don't put them in an area that can flood, or a low-
lying area. That was my big concern.
    Senator DeMint. What would have to take place, Mr. 
Whitten--and you mentioned, certainly the elderly, those who 
are in a medical situation--if you're going to have someone in 
a retirement home, assisted living, some kind of medical 
building, it has to be in a certified Category 5 storm or you 
can't do it. I mean, does it make sense to continue to allow 
people to open and put folks in these homes if we know that, 
practically, we're not going to be able to evacuate and that 
they are not safe at storm levels?
    Mr. Whitten. Well, and I think you're hitting the exact 
issue. And I'm going to give you a little bit more detailed 
answer. The evacuation zones in South Carolina are built 
exclusively on the hurricane surge. They're not wind-based at 
all. They are all hurricane surge. And based on some of the 
data you've heard about, the inability to adequately or 
accurately forecast intensity, we have to take some allowances 
for that.
    The reality is, we have some nursing homes that are very 
well built. I believe they have taken those extra steps to 
increase the strength that their building can withstand a wind 
event. But if they're in the surge zone, then they still need 
to evacuate.
    Senator DeMint. Even with the vertical evacuation idea that 
Dr. Prevatt mentioned?
    Mr. Whitten. Well, the problem is, the existing ones--most 
of our existing ones are single-floor.
    Senator DeMint. Right.
    Mr. Whitten. And the other thing that I am--I would like to 
throw in the conversation is, we talk about that structure 
being able to survive a storm, but the Governor has got to be 
able to provide infrastructure. If I can't get you clean water, 
sewer, I can't get you electricity or telephone service, you're 
okay, you've survived, and your structure might be fine, but 
you've got a problem about living. We've seen, after storms, 
especially on the coast where you have the surge, you see roads 
that get washed out. And that was a big issue in Folly Beach 
after Hurricane Hugo, and some other places. The road washes 
out from underneath, so it's unsafe. If I can't deliver public 
safety--if I can't get ambulances and cops and fire trucks 
around, you might be down there, but, if you have an emergency, 
I can't get to you. And that's a basic obligation of local 
government. And so, from my perspective, I'd rather you not be 
in that position, because what happens, if you come out, your 
house is fine, but the community has got a lot of problems and 
you get hurt, we're committing a lot of resources trying to get 
aid to you.
    Senator DeMint. Well, again, this--following this line of 
questioning--and it may be a question of a paradigm of 
evacuation--and rather than the millions of dollars of moving 
people out and ultimately moving people where they don't even 
know where they're going, could it--would it not be possible to 
have enough areas designated that may be able to have reserve 
water supplies, reserve power, that, even if the roads were out 
within a half a mile of almost every resident, there was--there 
could be sources of support? Knowing that nothing is perfect, 
but, given the fact that people moving along the highways, 
running out of gas, elderly people being evacuated--would it 
not be at least a compatible or complementary strategy to look 
at building the capabilities to--for people to withstand the 
storm where they are, or near where they are, that they should 
move to a vertical evacuation building within a mile of their 
home, and if we had maybe 30 of those on the Grand Strand--I'm 
not sure, but I guess it's something we need to question.
    Mr. Whitten. I think there's some value to that. And we 
even have worked with that. Max Mayfield has said, ``You run 
from the water and you hide from the wind.'' And that's one of 
the things that we try to push when we have an evacuation, is, 
``This is the evacuation zone. You need to leave. If you're 
outside the zone, you take some adequate precautions that were 
discussed''--basically, you protect your windows, and you do 
some basic things--``we recommend you stay.'' Unfortunately, a 
lot of those people, who haven't been here, have never--are 
from an inland state, possibly--they don't even want to risk 
it, so they add to that congestion on the road.
    Senator DeMint. We also have mandatory evacuations and that 
even--I know it happened to me last year. I ended up down here 
two days, and then I was--at least the Governor said I had to 
leave.
    [Laughter.]
    Senator DeMint. And I probably should have called and asked 
if that really applied to everybody, so, it is a confusing 
message. If you might have a situation where you're actually 
safer staying if you're outside the surge----
    But let me ask a question just about construction. I know I 
saw some pictures of a high-rise condo project on the Gulf, and 
one of the storms that came through, that we would have assumed 
that this structure could have withstood it in any hurricane, 
yet the surge, the water, worked its way under the foundation, 
since it was in a sandy foundation, and this whole thing 
collapsed. I mean, fortunately, the people had gone. But, as I 
look down the coast here, I would assume that a storm came 
through, all these large buildings would be okay. Do any of us 
have any idea if these are built with a foundation that could 
withstand that kind of undermining? Do we know that?
    Dr. Prevatt. My sense is yes. But, with certainty, I can't 
say that. But the experience has been that engineered 
structures like the high- or mid-rise buildings do, in fact, 
perform satisfactorily during any hurricane that we have 
survived. That one was certainly a unique case.
    But the idea--or the problem, should I say, with those 
buildings primarily is the wall-cladding, the roofing systems, 
and the windows that get damaged. Once those things fail, a lot 
of water and wind enter the structures, and that, in fact, can 
cause more damage than the----
    Senator DeMint. Well, we know how to put roofs on homes and 
buildings that could withstand, and we know how to develop 
shatterproof glass. I guess the question is, we're just not 
really using them----
    Dr. Prevatt. Because----
    Senator DeMint.--So we have to evacuate.
    Dr. Prevatt.--because we are not willing to pay for it up 
front. We prefer to wait until after the event and get the 
post-hurricane money, as opposed to the pre-hurricane retrofit.
    Senator DeMint. And I guess the incentives, as Mr. Dean has 
suggested, that insurance costs do not really reflect any kind 
of expense that will make these virtually hurricane-proof. So I 
guess it is easier to say, ``Well, we'll just let the insurance 
pay for it.'' But the economic impact of that, as well as, I 
think, the potential safety problems of putting that many 
people on the road, is enough for me to at least question if 
evacuation is the best primary strategy.
    Mr. Dean. I think, Mr. Chairman, because evacuations are a 
foregone conclusion in so many situations, that we really 
haven't incentivized that. Clearly, our collective mothers' 
advice that an ounce of prevention is worth a pound of cure 
would enable a healthy discussion to evaluate, is there a 
better way to approach it? I think the recent construction on 
the Grand Strand has certainly addressed some of those concerns 
that you've alluded to, but there are older properties that, 
when they were built, we didn't know the information we have 
today.
    Senator DeMint. Right.
    Mr. Dean. And I suggest, as we continue to grow and 
develop, not only along the coast of South Carolina, but the 
coast of the Southeastern United States, more and more of this 
information would be used, and, if used as an incentive to 
advantageously approach this, I think you would find, not only 
a lot of support amongst residents and businesses, but also 
local and state government.
    Senator DeMint. I see, I guess, some construction holes, 
and I assume this is being built to accommodate a certain level 
of surge so that we assume those structures might make it 
through a storm.
    Well, I could keep this questioning going for a long time, 
because I think we're kind of onto something that we need to 
explore a little more. And I do think the research and the 
possible incentives for construction alternatives to evacuation 
and perhaps certain types of restrictions that might suggest 
that if you're building medical facilities, that if they need 
to withstand the surge where they are, and a lot of that we 
could do.
    Before--I need to wrap up pretty quickly, but I want to 
make sure that none of you have a quick comment that you want 
to make based on other things that have been said. We really 
don't have time for another five minutes, but just an 
observation or something that you'd like to make sure we carry 
back. I mean, you've all come a long way, which I greatly 
appreciate. It has been, I think, incredibly good information 
to help us develop a consensus of some ideas. But a few 
comments.
    Yes, sir?
    Mr. Dean. Mr. Chairman, again, thank you for holding this 
hearing here and for taking the time to be with us. Thank you, 
to the other panelists. And we appreciate your interest in this 
issue that is so important, not only to the Grand Strand, but 
to the entire coast of the United States.
    I would also be remiss, Mr. Chairman, if I did not thank 
you and your counterparts in the South Carolina Congressional 
Delegation for your efforts to improve the infrastructure. It 
has been touched on here today, but we all know that Interstate 
73 will not only bring job growth, it will eventually save 
lives. And though that is not a part of this committee, your 
efforts as part of the Environment and Public Works Committee 
certainly give us hope that the infrastructure in South 
Carolina will dramatically improve in the near future, and that 
ultimately will improve the safety of our residents.
    Again, we thank you for your interest in this. It's very 
important to the coast of South Carolina and other areas, and 
we appreciate your leadership in such matters.
    Senator DeMint. Anything else?
    Mr. Cantore. Mr. Chairman, in 1900 we lost approximately 
8,000 people in Galveston because we didn't leave the beach. 
People underestimate the power of water. It weighs 60 pounds a 
cubic foot. That's when it's not moving. You know, I think 
there are some great ideas about getting people out of harm's 
way, but to be anywhere close to a surge where we are basically 
cutting off people, masses of people and buildings, is a 
dangerous proposition.
    Senator DeMint. I think that's a good thought. It would be 
a good warning to have. I think that the difference between 
water and wind is probably an important distinction.
    Dr. Prevatt. Mr. Chairman, I think the research community 
is doing all it can. You know, I have my vehicles ready, and we 
are ready. We're doing the reverse evacuation in every single 
hurricane to collect the data that people will need to develop 
better buildings.
    More importantly, I think it is important for the 
engineering researchers, the civics facilities, as well as the 
emergency managers to speak to each other, to develop the right 
mix of research, building code, and policy that would provide 
those incentives for changing the way we build. We chose to use 
plywood instead of plank roofing. You're right. We chose to 
build weaker houses. We can choose to go the other direction.
    Unidentified Panelist. Absolutely.
    Mr. Whitten. Right.
    Senator DeMint. Thank you.
    I want to do something--Mr. Whitten, you may want to say 
something, but I want to say something about you. I'd like to 
make a little presentation. Mr. Whitten, if you would come 
around here.
    One of the things we're doing on our tour around the state 
during our August break is to recognize people, organizations, 
and governments, who are helping move South Carolina forward. 
And the disaster preparedness here in Horry County and the 
technology that has been used has been recognized, really, all 
over the country. The progress that you're making, is one way 
we think is moving South Carolina forward. And so much of what 
we talk about in politics and in the news is often negative or 
some kind of disaster that's coming through. We don't talk 
enough about the good things that are happening and the 
progress we're making.
    And so, this South Carolina ``On the Move Award'' is 
awarded to Horry County for the Emergency Preparedness 
Division. And, Mr. Whitten, I'd like you to accept it on behalf 
of all of Horry County.
    [Applause.]
    Senator DeMint. I appreciate all of the witnesses who 
appeared today. I promise you, we'll use every bit of 
information you've given me. And it's certainly a lot of 
insight into what we need to do to move this forward. So, I 
can't thank you enough, and, all of you who came and sat 
through this, I appreciate it.
    And so, this hearing is officially over. Thank you.
    [Whereupon, at 10:18 a.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
